   October 15, 2003




Acquisition

Implementation of Interoperability
and Information Assurance Policies
for Acquisition of Army Systems
(D-2004-008)




              Department of Defense
          Office of the Inspector General
Quality               Integrity       Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms
C4I                   Command, Control, Communications, Computers, and Intelligence
CRD                   Capstone Requirements Document
DITSCAP               DoD Information Technology Security Certification Accreditation
                         Program
GIG                   Global Information Grid
IA                    Information Assurance
JITC                  Joint Interoperability Test Command
NS                    National Security
ORD                   Operational Requirements Document
SEP                   System Evaluation Plan
SER                   System Evaluation Report
SSAA                  System Security Authorization Agreement
TEMP                  Test and Evaluation Master Plan
TRADOC                Army Training and Doctrine Command
          Office of the Inspector General of the Department of Defense
Report No. D-2004-008                                                   October 15, 2003
   (Project No. D2002AE-0187)

            Implementation of Interoperability and Information
            Assurance Policies for Acquisition of Army Systems

                                Executive Summary

Who Should Read This Report and Why? Civil Service and military managers, who
are responsible for interoperability and information assurance requirements of Army
weapon systems, should be interested in this report. This report addresses the importance
of adhering to DoD and Army interoperability and information assurance policies to
reduce the risk of Army weapon systems not being interoperable and able to exchange
information in a secure manner with other DoD and allied systems.

Background. This report is the second in a series of reports on the implementation of
interoperability and information assurance policies for the acquisition of DoD weapon
systems. This report addresses the implementation of those policies within the Army.
The first report addressed the implementation of those policies within the Office of the
Secretary of Defense and the Defense agencies. Other reports in the series will address
how effectively the Navy and the Air Force implement those policies and the impact of
the Military Departments’ implementation at the unified combatant commands.
Interoperability and information assurance policies include the Joint Vision 2020 and the
Global Information Grid capstone requirement document.

Results. The Army did not implement DoD policy that required the Army to define how
each Army system will interface within the Global Information Grid to achieve joint
interoperability, did not adequately address interoperability during the requirements
generation process, and did not consistently conduct information assurance testing for
Army acquisition programs. As a result, the Army has not ensured that 33 of 41 systems
reviewed have the most effective, efficient, and assured information-handling capabilities
available, consistent with national military strategy, operational requirements, and best-
value enterprise-level business practices. Issuing and implementing guidance to define
how each Army system will interface within the Global Information Grid; identifying
interoperability and supportability requirements and developing testable information
assurance requirements during the requirements generation process; identifying roles and
responsibilities of combat developers in the DoD Information Technology Security
Certification and Accreditation Process; and requiring the system security authorization
agreement signatories to coordinate with the Army Test and Evaluation Command
throughout the acquisition cycle for Army systems subject to the DoD Information
Technology Security Certification and Accreditation Process should bring the oversight
and improvements needed to those issues. (See the Finding section of the report for the
detailed recommendations.)

Management Comments and Audit Response. We received comments from the
Director, Operational Test and Evaluation; the Principal Director for Enterprise
Integration, Office of the Army Chief Information Officer; and the Acting Deputy for
Systems Management, Office of the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology); however, we did not receive comments from the Army
Deputy Chief of Staff for Operations and Plans on the draft report. The Director,
Operational Test and Evaluation agreed with the findings and recommendations. The
Principal Director, responding for the Secretary of the Army and the Army Chief
Information Officer, concurred with recommendations to issue and implement guidance
to comply with Global Information Grid (GIG) policy, to expedite efforts to populate and
maintain the Army’s portion of the GIG asset inventory, to provide Army combat
developers with training on the GIG, to update Army acquisition and materiel
requirements policy, and to validate warfighting requirements. However, the Principal
Director stated that program managers should not obtain interoperability certifications,
except by exception. The Acting Deputy for Systems Management concurred with the
recommendations to update Army acquisition policy concerning testable information
assurance requirements, roles and responsibilities of combat developers, and test and
evaluation coordination. Further, although not required, the Principal Director
commented on recommendations addressed by the Acting Deputy. (See the Finding
section of this report for a discussion of the management comments and the Management
Comments section of the report for the complete text of the comments.)

Office of the Secretary of Defense guidance requires program managers to obtain
interoperability certifications. Therefore, we request that the Principal Director clarify
his response on program managers obtaining interoperability certifications on an
exception basis. Further, we request that the Army Deputy Chief of Staff for Operations
and Plans provide comments on the recommendation to update Army acquisition and
materiel requirements policy. The comments on this report should be provided by
December 15, 2003.




                                            ii
Table of Contents

Executive Summary                                                                i

Background                                                                       1

Objectives                                                                       3

Findings
     A. Compliance With the Global Information Grid                              4
     B. Implementing Interoperability Policies                                  10
     C. Information Assurance Testing of Army Systems                           20

Appendixes
     A. Scope and Methodology                                                   33
            Prior Coverage                                                      34
     B. Glossary                                                                35
     C. Global Information Grid                                                 43
     D. Army Interoperability and Information Assurance Survey Results          45
     E. Army Programs Surveyed                                                  51
     F. Information Assurance Requirements Policy                               52
     G. Report Distribution                                                     54

Management Comments
     Director, Operational Test and Evaluation                                  57
     Secretary of the Army and Army Chief Information Officer                   58
     Assistant Secretary of the Army (Acquisition, Logistics, and Technology)   65
Background
    This report is the second in a series of reports on the implementation of
    interoperability and information assurance (IA) policies within DoD. This report
    addresses the Army’s implementation of those policies in the:

           •   interoperability requirements generation process and the oversight
               thereof;

           •   inclusion of adequate interoperability key performance parameters in
               the requirements documents; and

           •   interoperability certification process for Army systems.

    Appendix B provides a glossary of technical terms used in this report.

    Chairman of the Joint Chiefs of Staff Testimony on the President’s Proposed
    Defense Program for FYs 2003 to 2007. On February 6, 2002, General Myers,
    the Chairman of the Joint Chiefs of Staff, testified before the U.S. House of
    Representatives Committee on Armed Services. General Myers described how
    Army, Navy, Air Force, and Marine Corps systems shared information to execute
    combat operations in Afghanistan. He testified that:
               To fulfill our range of commitments and protect our global interests,
               we must make the investments necessary to maintain the quality of our
               force, while preparing for future challenges of the 21st [century.] The
               best means of accomplishing these goals are to improve our joint
               war-fighting capability, and transform the armed forces into a 21st
               century force.

    Quadrennial Defense Review. On September 2001, the Quadrennial Defense
    Review report stated that achieving the objectives of the defense strategy requires
    the transformation of the U.S. Armed Forces. Two of the six critical operational
    goals for the DoD transformational efforts relate to IA and interoperability:

           •   assuring that, in the face of attack, information systems conduct
               effective information operations; and

           •   leveraging information technology and innovative concepts to develop
               interoperable, joint command, control, communications, computers,
               intelligence, surveillance, and reconnaissance architectures and
               capability that includes an adaptable joint operational picture.

    Joint Vision 2020. On May 30, 2000, the Chairman of the Joint Chiefs of Staff
    issued Joint Vision 2020, which addressed the concept to design, and produce
    systems with joint warfighting requirements. Joint Vision 2020 describes in broad
    terms a future joint force whose operational capabilities will be required to
    succeed across the full range of military operations and accomplish missions in the
    year 2020 and beyond. Joint Vision 2020 states that interoperability is a mandate
    for the future joint force especially for communications, common logistics items,
    and information sharing. Information systems and equipment that enable a

                                             1
common, relevant operational picture must work from shared networks that can be
accessed by any appropriately cleared participant. Another tenet of Joint
Vision 2020 is to attain information superiority. Information superiority supports
providing the right information to the right people, at the right time, and in the
right format, resulting in a vastly improved shared understanding of the situation.

Global Information Grid. In November 1999, the Joint Chiefs of Staff assigned
the Commander, U.S. Joint Forces Command the task of preparing the capstone
requirements document (CRD) for the Global Information Grid (GIG). On
August 30, 2001, the Joint Requirements Oversight Council approved the CRD,
which describes the overarching information capability requirements for a globally
interconnected, end-to-end, interoperable, and secured system-of-systems that
would support the Secretary of Defense, the warfighter, DoD personnel, the
intelligence community, policy makers, and non-DoD users at all levels involved
in military and nonmilitary operations. Appendix C discusses the GIG.

Army Transformation Roadmap. The Army Transformation Roadmap details
how the Army plans to progress towards attaining the goals for transformation
outlined in the FY 2001 Quadrennial Defense Review. To meet three of the DoD
transformation pillars of strengthening joint operations, experimenting with
approaches to warfare and operational capabilities, and leveraging intelligence
and information technology, the Army will:

       •   work directly with the Joint Staff, the Joint Forces Command, and the
           Office of the Secretary of Defense’s Office of Net Assessment;

       •   evaluate concepts and technology in Joint and Army experimentation
           by leveraging laboratories, analysis, and experimentation plans
           supporting the development of the Objective Force; and

       •   ensure reciprocity with the Joint Force’s entire range of capabilities by
           embedding full interoperability in its command, control,
           communications, computers, intelligence (C4I), surveillance, and
           reconnaissance technology.

The Army plans to achieve integration by incorporating compatible
technologies and by standardizing interfaces and components across the force
using experiments and training. Furthermore, the Army plans to develop a
mobile and flexible wireless infrastructure for passing secure and non-secure
voice, data, and video to ground commanders. This infrastructure constitutes
the Army’s contribution to the GIG.

Concepts to Develop a Secure Interoperable Joint C4I, Surveillance, and
Reconnaissance Architecture. The dominant enabler for Army transformation is
to attain a seamless interoperable joint C4I, surveillance, and reconnaissance
architecture within the infrastructure. The Army vision starts with the Army
creating processes and designing a Web-based force for individuals or
organizations to obtain needed knowledge from the infrastructure. During the
Army’s transformation, the Web’s use is to sustain and improve interoperability
across all Army components, within the Joint team and with multinational partners.
Army transformation efforts will produce the Objective Force systems with the


                                     2
           Future Combat Systems as the centerpiece. The Objective Force will have
           embedded autonomous, self-synchronizing automated capabilities to support the
           Joint Force. The Army faces a complex challenge in achieving an effective
           coexistence between interoperability and IA within the context of many planning
           documents such as the Joint Vision 2020, the GIG, and the Army Transformation
           Roadmap.

           Scope of Army Programs Surveyed. We judgmentally selected 41 new or
           modified Army programs with research and development funding that interface
           with other systems. We sent a questionnaire to each program office to survey
           their awareness of interoperability and IA requirements. Appendix D contains the
           results of the survey. In addition, we requested each program office to provide
           the following documents:

                    •    operational requirements document (ORD),1
                    •    C4I Support Plans,
                    •    test and evaluation master plans (TEMP), and
                    •    system security authorization agreements (SSAA).

           Appendix E lists the Army programs surveyed.

           Overall Audit Project. This project is a continuation of work begun on Project
           No. D2002AE-0009, “Implementation of Interoperability and Information
           Assurance Policies for Acquisition of DoD Weapon Systems,” which addressed
           whether the Office of the Secretary of Defense and the Defense agencies were
           effectively implementing DoD interoperability and IA policies. Subsequent
           audits are planned to address the adequacy of interoperability and information
           assurance requirements for systems in the Navy and the Air Force, and used by
           the unified combatant commands.

Objectives
           The primary audit objective was to evaluate whether the Army was effectively
           implementing DoD interoperability and IA policies. The audit determined
           whether the Army was effectively identifying system interoperability and IA
           requirements in the requirements generation process. See Appendix A for a
           discussion of the audit scope and methodology, and prior coverage related to the
           audit objectives.




1
    DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12, 2003, states that,
    during system development and demonstration, the capability development document instead of the ORD
    will have the detailed operational performance parameters. Further, the Instruction states that the
    capability production document instead of the ORD will have the operational requirements resulting from
    system development and demonstration and will detail the performance expected of the production
    system. However, this report uses the term ORD because the programs reviewed during the audit used
    ORDs.


                                                      3
                    A. Compliance With the Global
                       Information Grid
                    The Army did not implement DoD policy that required the Army to
                    define how each Army system will interface within the GIG to achieve
                    joint interoperability. DoD policy was not implemented because the
                    Secretary of the Army, or his designated representative, did not:

                             •    issue guidance to comply with the DoD GIG policy;

                             •    populate and maintain the Army’s portion of the GIG asset
                                  inventory; and
                             •    provide Army program offices and combat developers2 at the
                                  Army Training and Doctrine Command (TRADOC) with
                                  training that addresses policy and compliance issues related to
                                  the GIG.

                    Without a defined policy depicting how each Army system will interface
                    within the GIG, the Army has not ensured that its systems have the most
                    effective, efficient, and secure information-handling capabilities
                    available, consistent with national military strategy, operational
                    requirements, and best-value enterprise-level business practices.

Global Information Grid Policy
            DoD Directive 8100.1, “Global Information Grid (GIG) Overarching Policy,”
            September 19, 2002, and DoD Instruction 5000.2, “Operation of the Defense
            Acquisition System,” May 12, 2003, provide policy concerning the GIG.

            DoD Directive. DoD Directive 8100.1 establishes policy and assigns
            responsibilities for GIG configuration management and architecture and applies
            to the Office of the Secretary of Defense as well as the Military Departments.
            The Directive states that the DoD Components will plan, resource, acquire, and
            implement the GIG in accordance with the DoD Directives System 5000 series.
            The Directive requires GIG assets to be interoperable to meet the requirements of
            approved requirements documents and to comply with the operational, system,
            and technical architecture views. Before DoD issued DoD Directive 8100.1, the
            above requirements were included in DoD Memorandum, “DoD Chief
            Information Officer (CIO) Guidance and Policy Memorandum No. 8-8001,”
            March 31, 2000.

            DoD Instruction. DoD Instruction 5000.2 requires the DoD Chief Information
            Officer to lead the development and facilitate the implementation of the GIG

2
    Army Regulation 71-9 states that the Army Training and Doctrine Command is the Army combat
    developer, who serves as the user representative for system acquisitions. The combat developer is
    responsible for development and approval of materiel requirements, as well as, doctrine and organization.


                                                       4
          Integrated Architecture, which supports all mission area and capability
          architectures.3 Further, the Instruction requires the Military Departments and
          the Defense Agencies to participate in the identification of the appropriate
          technical view consisting of standards that define and clarify the individual
          systems technology and integration requirements. The Instruction also requires
          the acquisition of all information technology systems to be consistent with the
          GIG policies. The combat developer for each system is to document a key
          performance parameter for interoperability requirements in the ORD.

    Implementing Global Information Grid Policy in ORDs
          The Army did not implement DoD policy that required the Army to define how
          each Army system will interface within the GIG to achieve interoperability. DoD
          policy was not implemented because the Secretary of the Army, or his designated
          representative, did not provide direction to Army user representatives to
          implement the DoD GIG policy in the requirements generation process. Because
          combat developers at TRADOC lacked awareness of their GIG requirements,
          33 of the 41 Army programs surveyed had ORDs that did not include
          requirements identifying how the systems would interface within the GIG.

          Combat Developers Awareness of the GIG. Combat developers at the
          TRADOC were not fully aware of how to implement the GIG requirements. The
          TRADOC stated that combat developers were adding boilerplate statements for
          the GIG capstone requirements document and hoping to build software with
          common specifications, standards, or processes. Interviews with six directorates
          of combat development established that each combat developer had a different
          understanding of how to comply with GIG requirements. In addition, TRADOC
          personnel stated that they did not have a database or tool for tracking ORDs to
          determine which systems were required to interface within the GIG.

          Complying with GIG Policy. During the requirements definition and
          development stage, the combat developers are required to link the ORD to the
          appropriate CRD. The GIG Capstone Requirements Document states that the
          GIG includes any system, equipment, software, or service that meets one or more
          of the following criteria:

                   •   transmits information to, receives information from, routes
                       information among, or interchanges information among other
                       equipment, software, and services;


3
 The June 2001 and April 2002 versions of DoD Regulation 5000.2-R required the DoD Chief
 Information Officer’s acquisition-related responsibilities to focus on key principles such as the
 operational view of the approved GIG Integrated Architecture and the approved GIG CRD. The review
 was to focus on compliance with GIG-related policies and the approved GIG Integrated Architecture.
 The principal participants at DoD Chief Information Officer reviews include the cognizant program
 executive officer and program manager and Component acquisition executives and chief information
 officers of the Military Departments. Further, the Regulation required that the C4I support plan provide
 a qualitative assessment addressing the GIG integrated architecture and relevant mission area integrated
 architectures.


                                                      5
           •   provides retention, organization, visualization, IA, or disposition of
               data, information, or knowledge received from or transmitted to other
               equipment, software, and services; or

           •   processes data or information for use by other equipment, software, or
               services.

    Further, the GIG Capstone Requirements Document requires that an ORD for
    new systems and for upcoming legacy systems that are associated with GIG
    systems, regardless of acquisition category, must comply with the GIG Capstone
    Requirements Document.

    Applicability of the GIG Capstone Requirements Document. The GIG
    Capstone Requirements Document applies to the 41 systems surveyed because
    those systems interoperate with other systems. Consequently, we reviewed the
    ORDs obtained from the 41 program offices to determine whether the combat
    developers addressed GIG requirements during the requirements generation
    process. Although required, combat developers had updated only 24 of the
    41 ORDs after the GIG Capstone Requirements Document was issued on
    August 30, 2001. Further, combat developers linked only eight of the updated
    ORDs to the GIG capstone requirements documents.

GIG Asset Inventory
    GIG Asset Inventory Policy. DoD Directive 8100.1 requires the DoD
    Components to populate and maintain their portion of the GIG asset inventory;
    and acquire or procure, in compliance with the GIG architecture, all leased,
    owned, operated, or managed GIG systems, services, upgrades, or expansions to
    existing systems or services.

    Army GIG Asset Inventory. Personnel in the Army Chief Information Office
    stated that the Army had not compiled an inventory of GIG assets to comply with
    DoD Directive 8100.1. Although no Army GIG asset inventory existed, we asked
    the 41 Army program offices surveyed whether they considered their programs to
    be part of the GIG asset inventory. The program offices responses were as
    follows:

           •   17 Army program offices responded that their programs were part of
               the GIG asset inventory,

           •   11 Army program offices responded that their programs were not part
               of the GIG asset inventory, and

           •   13 Army program offices were not sure whether their programs were
               part of GIG asset inventory.

    Appendix D contains the complete results of the program offices’ survey.




                                        6
            Efforts to Establish a GIG Asset Inventory. The Army Chief Information
            Officer is defining the Army Joint Technical Architecture.4 Part of that effort is
            the Army Enterprise Infostructure Transport, which is a three-phased approach
            that will outline how each Army system will interface within the GIG to achieve
            joint interoperability.

                    •    Phase I will stand up enterprise network transport, which will
                         document, model, and analyze the network topology and primary
                         interfaces of Army networks;

                    •    Phase II will integrate and optimize subnetworks and develop a
                         migration strategy to integrate the Army networks into a single
                         network; and

                    •    Phase III will establish enterprise storage and core common services
                         that will consolidate network services, application hosting, data
                         storage, and network management.

            After the Army Chief Information Office establishes the Army Enterprise
            Infostructure-Transport, it will compile the Army GIG asset inventory.

GIG Training
            The Army Director of Information Operations Space and Networks, Office of the
            Chief Information Officer agreed that the majority of combat developers did not
            understand how their systems interfaced within the GIG. Because the GIG is a
            major part of interoperability, awareness of the GIG is essential for the Services
            to achieve total joint interoperability as outlined in Joint Vision 2020. To correct
            this knowledge deficiency, the Director believed that training should be provided
            to combat developers and program managers on how the GIG works and how
            their respective systems interface within the GIG.

            Although GIG training for the combat developers is needed, Army-wide training
            has not been provided. Personnel from the Army Chief Information Office stated
            that training the combat developers and program managers before the Army
            defines how each Army system will interface within the GIG and coordinates
            policies and procedures with the GIG Capstone Requirements Document would
            be premature. Further, the personnel stated that until the Army establishes its
            Joint Technical Architecture, the combat developers may not be able to fully
            comply with GIG requirements and provide all needed training.




4
    The Joint Technical Architecture is a common set of mandatory information technology standards, which
    are primarily interface standards and guidelines to be used by all emerging systems and systems upgrades,
    including advanced concept technology demonstrations.


                                                       7
Effect on Implementing the Global Information Grid Policy
     Without a defined policy depicting how each Army system will interface within
     the GIG, the Army cannot ensure that its systems have the most effective,
     efficient, and assured information-handling capabilities available, consistent with
     national military strategy, operational requirements, and best-value enterprise-
     level business practices.

Management Comments on the Finding
     Although not required to comment, the Director, Operational Test and Evaluation
     agreed with the finding. For the complete text of the Director’s comments, see
     the Management Comments section of the report.

Recommendations and Management Comments
     A. We recommend that the Secretary of the Army:

            1. Issue and implement guidance to comply with DoD
     Directive 8100.1, “Global Information Grid (GIG) Overarching Policy,”
     September 19, 2002, which requires the Army to define how each Army
     system will interface within the Global Information Grid to achieve joint
     interoperability.

     Principal Director for Enterprise Integration, Office of the Army Chief
     Information Officer Comments. The Principal Director, responding for the
     Secretary of the Army, concurred, stating that the Army is revising Army
     Regulation 25-1, “Army Information Management,” May 31, 2002, and Army
     Regulation 70-1, “Army Acquisition Policy,” December 15, 1997, to include the
     requirements of DoD Directive 8100.1. Further, he stated that any requirements
     not adequately addressed will be incorporated into the next revision of those
     regulations. The Principal Director also stated that the Army published its Army
     Knowledge Implementation Plan in September 2003 and the next revision of the
     plan will address how Army systems will interface with the GIG. For the
     complete text of the Principal Director’s comments, see the Management
     Comments section of the report.

     Director, Operational Test and Evaluation Comments. Although not required
     to comment, the Director agreed with the recommendation. For the complete text
     of the Director’s comments, see the Management Comments section of the report.




                                          8
       2. Expedite efforts to populate and maintain the Army’s portion of
the Global Information Grid asset inventory in accordance with DoD
Directive 8100.1, “Global Information Grid (GIG) Overarching Policy,”
September 19, 2002.

Principal Director for Enterprise Integration Comments. The Principal
Director concurred, stating that the Army expects to complete documenting its
information technology assets by the end of the first quarter of FY 2004. Further,
he stated that the Army will develop an enterprise management strategy to
oversee those information technology assets by the end of the second quarter of
FY 2004 and expects to implement the strategy in the first quarter of FY 2005.

Director, Operational Test and Evaluation Comments. Although not required
to comment, the Director agreed with the recommendation.

       3. Provide Army combat developers at the Army Training and
Doctrine Command with training on how to implement the requirements of
the Global Information Grid.

Principal Director for Enterprise Integration Comments. The Principal
Director concurred, stating that, using the strategy outlined in the Army
Knowledge Management Goals, the Army will provide guidance to the Army
Training and Doctrine Command on how to develop training to implement GIG
requirements by the end of the fourth quarter of FY 2004.

Director, Operational Test and Evaluation Comments. Although not required
to comment, the Director agreed with the recommendation.




                                    9
           B. Implementing Interoperability Policies
           The Army requirements community did not adequately address
           interoperability in the requirements generation process for use in the
           acquisition process. Interoperability was not adequately addressed
           because the Army Deputy Chief of Staff for Operations and Plans, in
           coordination with Army Chief Information Office, did not update Army
           regulations pertaining to system acquisitions to implement DoD and Joint
           Staff interoperability requirements for:

                  •   combat developers to identify interoperability requirements in
                      requirements documents and to update the requirements
                      throughout the life of the systems, as necessary;

                  •   program managers to use C4I support plans to document
                      interoperability and supportability requirements; and

                  •   program managers to obtain Director, Command, Control,
                      Communications, and Computer Systems Directorate (J-6) (the
                      Joint Staff J-6) validation of system warfighter interoperability
                      requirements.

           Without updating Army regulations to effectively implement DoD
           interoperability policy, the Army risks developing systems that operate
           independently of other Army and DoD systems and not realizing the
           full benefits of interoperable DoD systems that conform to the GIG
           and satisfy the needs of the warfighter as outlined in Joint
           Vision 2020.

Interoperability Requirements
    The Army did not consistently include interoperability requirements in its
    requirements documents because the Army Deputy Chief of Staff for Operations
    and Plans, in coordination with the Army Chief Information Officer, had not
    updated its implementing regulations for interoperability. As a result, combat
    developers for only 15 of the 41 Army program offices surveyed had included
    testable interoperability key performance parameters and information exchange
    requirements in ORDs.

    DoD Interoperability Requirements Policy. DoD Directive 4630.5,
    “Interoperability and Supportability of Information Technology (IT) and National
    Security Systems (NSS)” January 11, 2002, as implemented in DoD
    Instruction 4630.8, “Procedures for Interoperability and Supportability of
    Information Technology (IT) and National Security Systems (NSS),” May 2,
    2002, require the DoD Components to identify interoperability and supportability
    requirements for information technology and National Security (NS) systems
    during the acquisition process and update as necessary throughout the system’s
    life. Specifically, DoD policy requires the DoD Components to define and
    develop information exchange requirements and interoperability key performance


                                       10
               parameters. The information exchange requirements characterize the information
               exchanges to be performed by the proposed system. The interoperability key
               performance parameter defines the level of interoperability for the proposed
               system and will be derived from the information exchange requirements. The
               interoperability key performance parameter is to be measurable and testable.5

               Review of Operational Requirement Documents. Based on our review of the
               ORDs for the 41 Army programs surveyed, we determined whether the combat
               developers included information exchange requirements and associated
               interoperability key performance parameters that could be measured, tested, and
               evaluated. The following table shows the number of Army programs surveyed
               that did not have information exchange requirements and associated
               interoperability key performance parameters.

                                          Interoperability Requirements Not Established in ORDs.

                                     45
                                     40
           Number of ORDs Reviewed




                                     35
                                     30
                                     25
                                     20
                                     15
                                     10             23
                                                                                 17
                                      5
                                      0
                                            Information Exchange           Key Performance
                                                 Requirements                 Parameters

               In addition, of the 24 ORDs that included interoperability key performance
               parameters, 16 ORDs had key performance parameters that could be measured,
               tested, and evaluated.

               According to Joint Staff policy memorandum, “Policy for Updating Operational
               Requirements Documents to Incorporate the Interoperability Key Performance
               Parameter and Cost,” November 16, 1999, all ORDs supporting a system
               development and demonstration or production and deployment milestone


5
    Measurable and testable key performance parameters are parameters that testers can use to measure, test,
    and evaluate the obtainment of system objectives and thresholds.



                                                                   11
            decision6 after March 1, 2001, will be updated to include information exchange
            requirements and interoperability key performance parameters.

            Updated Army Interoperability Requirements. The Army did not consistently
            include interoperability requirements in its requirements documents because the
            applicable Army ORD preparation guidance was not up-to-date. Army
            Regulation 71-9, “Materiel Requirements,” April 30, 1997, provides Army policy
            and procedures for materiel warfighting requirements and assigns the Army
            Deputy Chief of Staff for Operations and Plans with the responsibility for
            updating and maintaining the Regulation.

                    On February 21, 2000, the Army Deputy Chief of Staff for Operations and
            Plans issued a memorandum, “Policy for Updating Operational Requirements
            Documents (ORDs) to Incorporate Interoperability Key Performance Parameters
            (KPPs) and Costs,” which states that all requirements documents currently in the
            approval process, regardless of acquisition category, must include interoperability
            key performance parameters as required in the previous version of Chairman of
            the Joint Chiefs of Staff Instruction 3170.01B, “Requirements Generation
            System,” April 15, 2001.7 The requirements documents that are receiving
            funding must be updated by October 1, 2000.

                    On April 12, 2001, the Army Deputy Chief of Staff for Operations and
            Plans issued a memorandum, “Approval of Army Warfighting Requirements–
            Interim Implementation Guidance,” that serves as interim guidance pending an
            update to Army Regulation 71-9, which was last updated April 30, 1997. The
            interim guidance applies to all requirements documents regardless of acquisition
            category. However, the Regulation and the interim guidance do not require the
            Army combat developers to identify interoperability and supportability
            requirements for information technology and NS systems during the requirements
            generation process and to update the requirements as necessary throughout the
            system’s life, in accordance with DoD Policy.

            Although the Army Deputy Chief of Staff for Operations and Plans issued a few
            policy memorandums, the Army Deputy Chief of Staff for Operations and Plans
            has not updated Army Regulation 71-9 since 1997. The Army Deputy Chief of
            Staff for Operations and Plans needs to update the regulation to incorporate the
            interoperability requirements. If combat developers do not identify
            interoperability key performance parameters in the ORDs, program managers
            cannot incorporate those interoperability requirements into the C4I support plans
            and the TEMPs.




6
    As of the date of the policy memorandum, the system development and demonstration milestone and
    production and deployment milestone were referred to as Milestone II and Milestone III, respectively.
7
    Subsequent to the issuance of the draft audit report, the Joint Staff issued Chairman of the Joint Chiefs of
    Staff Instruction 3170.01C, “Joint Capabilities Integration and Development System,” June 24, 2003,
    which canceled Chairman of the Joint Chiefs of Staff Instruction 3170.01B.


                                                        12
C4I Support Plans
           DoD Instruction 4630.8 requires program managers to prepare a C4I support plan
           to document interoperability and supportability requirements. The C4I support
           plan is a mechanism to identify and resolve implementations issues related to
           C4I surveillance and reconnaissance infrastructure and interface requirements.
           DoD Instruction 4630.8 also requires program managers to:

                    •    prepare the initial C4I support plan before the system development and
                         demonstration milestone decision and

                    •    maintain the C4I support plans throughout the acquisition life cycle.

           At each milestone review, C4I support plans are to contain progressively more
           detailed and specific time-phased descriptions of the types of information needed:
           operational, systems, and technical architecture views; security, connectivity, and
           interoperability issues; and infrastructure and support shortfalls.

           Review of C4I Support Plans. Based on our review of the 41 Army programs
           surveyed, we determined that Army program managers were not, for the most
           part, preparing C4I support plans. Specifically, we requested C4I support plans
           from the 41 Army program offices.8 Thirty-seven of the 41 Army programs were
           past the system development and demonstration milestone decision. As a result,
           the program managers for those 37 programs should have prepared a C4I support
           plan. However, program managers for only 13 of the 37 programs had a
           C4I support plan.

           C4I Support Plan Requirement. Although DoD policy states that program
           managers for all acquisition systems past the system development and
           demonstration milestone decision should have a C4I support plan, the 24 other
           Army program offices stated that they did not prepare a C4I support plan because:

                    •    the program had entered full-rate production before the C4I support
                         plan became a requirement (11 program offices);

                    •    the program was part of another program (1 program office);

                    •    the cost to prepare a C4I support plan was not justifiable (1 program
                         office);

                    •    the program did not interface with other programs (3 program offices);
                         and

                    •    the program office planned to prepare or was beginning to prepare a
                         C4I support plan (8 program offices).

8
    We requested C4I support plans by a data request and followed up with phone calls to the program offices
    to verify that C4I support plans did not exist. In addition, we contacted the Office of the Army Chief
    Information Officer to obtain C4I support plans.



                                                      13
           In addition, the Army Deputy Chief of Staff for Operations and Plans, in
           coordination with Army Chief Information Office, had not updated Army
           acquisition regulations to conform with DoD policy. Specifically, Army
           Regulation 70-1, “Army Acquisition Policy,” December 15, 1997, which
           implements the Army’s acquisition policy for all Army acquisition programs,
           and Army Regulation 71-9 do not require Army program managers for all
           acquisition programs to prepare a C4I support plan to document
           interoperability and supportability requirements, as required by DoD
           Instruction 4630.8. Accordingly, Army program managers were not benefiting
           from preparing C4I support plans to describe system dependencies and
           interfaces in sufficient detail to enable them and operational testers to test
           interoperability key performance parameters derived from information
           exchange requirements.

Interoperability Certification Process
           Interoperability is essential for seamless and effective operations of joint,
           combined, and coalition forces. To implement, DoD established an
           interoperability certification process to ensure that joint information technology
           and NS systems conform to DoD policy, doctrine and interoperability standards.
           However, the Army Deputy Chief of Staff for Operations and Plans, in
           coordination with Army Chief Information Officer, did not implement
           procedures for the interoperability certification process. As a result, Army
           program managers did not always obtain the required interoperability
           requirements and supportability certifications and validations from the Joint
           Staff J-6. The Joint Staff J-6 certification and validation process consists of the
           following three forms of capability confirmation:

                    •   interoperability requirements certification,

                    •   supportability certification, and

                    •   interoperability system validation.

           Joint Staff J-6 Interoperability Requirements Certification. Chairman
           of the Joint Chiefs of Staff Instruction 6212.01B, “Interoperability and
           Supportability of National Security Systems, and Information Technology
           Systems,” May 8, 2000,9 requires the Joint Staff J-6 to certify
           interoperability requirements in the ORDs before milestone decisions of
           system acquisition programs. The Joint Staff J-6 certifies mission need
           statements, CRDs, and ORDs, regardless of acquisition category level, for
           conformance with joint information technology and NS system policy and
           doctrine and interoperability standards. As part of the review process, the
           Joint Staff J-6 requests assessments from the Military Departments, the
           Defense Information Systems Agency, and other DoD agencies through the
           Joint Staff J-6 assessment tool.
9
    According to the Joint Staff, the Chairman of the Joint Chiefs of Staff Instruction 6212.01B,
    “Interoperability and Supportability of National Security Systems, and Information Technology,” May 8,
    2000, is being updated for issuance in November 2003.


                                                     14
        Results of Interoperability Requirements Certification. We reviewed the
        41 Army programs surveyed to determine whether combat developers had the
        Joint Staff J-6 certify the interoperability requirements in their ORDs. Of the
        41 programs, 11 combat developers had obtained the required interoperability
        requirements certification and 7 combat developers had entered their ORDs
        into the interoperability requirements certification process within the last year.
        Of the remaining 23 programs reviewed:

                •   13 combat developers had their ORDs in the interoperability
                    requirements certification process for more than 1 year without any
                    advancement, and

                •   10 combat developers did not submit their ORDs to the Joint Staff J-6
                    for review in the interoperability requirements certification process.

        According to the Office of the Army Deputy Chief of Staff for Operations and
        Plans, 22 of the 23 programs were not being formally updated in preparation for a
        milestone decision review, so the ORDs did not need to be submitted to the Joint
        Staff J-6 for the interoperability requirements certification process.

        However, 9 of the 23 programs had milestone decisions since the issuance of
        Joint Staff policy or have upcoming milestone decisions within the next year;
        therefore, we determined that the ORDs should have been updated or should be
        updated to include information exchange requirements and an interoperability key
        performance parameters. Further, the ORDs should have been subjected or
        should be subjected to interoperability requirements certification. In addition, 19
        of the 23 programs were budgeted for funding in FY 2003 and, according to the
        February 21, 2000, Army Deputy Chief of Staff for Operations and Plans policy
        memorandum, requirements documents should be updated and interoperability
        certification obtained.

        Joint Staff J-6 Supportability Certification. Chairman of the Joint Chiefs of
        Staff Instruction 6212.01B requires the Joint Staff J-6 to certify to the Assistant
        Secretary of Defense (Networks and Information Integration)10 that C4I
        support plans, regardless of acquisition category, adequately address
        information technology and NS system infrastructure requirements, the
        availability of bandwidth and spectrum support, funding, and personnel, and
        also identify dependencies and interface requirements among systems. As part
        of the review process, the Joint Staff J-6 requests supportability assessments
        from the Defense Information Systems Agency and other DoD agencies
        through the Joint Staff J-6 assessment tool. Further, DoD Instruction 4630.8
        requires that the Joint Staff J-6 conduct a supportability certification of
        C4I support plans before milestone decisions for submission to the Assistant
        Secretary of Defense (Networks and Information Integration) as part of the
        C4I support plan review process.




10
  Formerly named the Assistant Secretary of Defense (Command, Control, Communications, and
 Intelligence).


                                                15
Results of Joint Staff J-6 Supportability Certification. Of the 17 C4I support
plans obtained for the 41 Army programs surveyed, as discussed earlier:

       •   3 program managers had received the required supportability
           certification of their C4I support plans from the Joint Staff J-6 ,

       •   2 program managers had their C4I support plans in the
           supportability certification process for more than 1 year without any
           advancement, and

       •   12 program managers did not submit their C4I support plans to the
           Joint Staff J-6 for review in the supportability certification process.

Even though Chairman of the Joint Chiefs of Staff Instruction 6212.01B requires
the Joint Staff J-6 to certify C4I support plans, regardless of acquisition category,
personnel in the Army Chief Information Office were of the opinion that only
Acquisition Category I programs are required to have their C4I support plans
certified by the Joint Staff J-6.

Joint Staff J-6 Interoperability System Validation. Chairman of the Joint
Chiefs of Staff Instruction 6212.01B states that the Joint Staff J-6 validation is
intended to provide total life-cycle oversight of warfighter interoperability
requirements, which occurs after the Joint Staff J-6 interoperability requirements
and supportability certifications. As part of the system validation process, the
program managers are required to submit their systems to the Joint
Interoperability Test Command (JITC) for interoperability testing and
certification. Further, the Instruction states that the Joint Staff J-6 is to validate
the JITC interoperability system test results 15 days after the JITC certification.
According to the Instruction, Military Departments and Defense agencies are
required to have those systems undergo interoperability certification testing
before the full-rate production decision approval for all new or modified
information technology and NS systems.

Results of Interoperability System Validation. Of the 41 programs surveyed,
11 programs had a production and fielding milestone decision since May 2000,
when the Chairman of the Joint Chiefs of Staff Instruction 6212.01B was issued.
However, none of the program managers had obtained the Joint Staff J-6
interoperability validation for their systems as required by the Joint Staff policy
discussed above.

Furthermore, eight program managers requested JITC to perform interoperability
testing before obtaining Joint Staff J-6 certification of the interoperability
requirements contained in the ORD, as required by Joint Staff policy. As a result,
JITC tested four of the eight programs without Joint Staff J-6 interoperability
requirements certifications and certified three of those programs. Thus,
four programs were prematurely tested before the Joint Staff J-6 certified the
interoperability requirements, coordinated the requirements with the other
Military Departments and Defense agencies, or ensured that the interoperability
requirements complied with joint policy, doctrine, and interoperability standards.




                                      16
     Need to Complete the Interoperability Certification Process. Army program
     managers need to obtain the required interoperability requirements certification
     of ORDs, the supportability certification of C4I support plans, and the
     interoperability system validation from the Joint Staff J-6 to ensure that the
     warfighter has effective, integrated systems and networks that meet mission
     needs.

Effects of Army Implementation of DoD Interoperability
  Policy
     Without updating Army regulations to effectively implement DoD
     interoperability policy, the Army risks developing systems that operate
     independently of other Army and DoD systems and not realizing the full benefits
     of interoperable DoD systems that conform to the GIG and satisfy the needs of
     the warfighter as outlined in Joint Vision 2020.

Management Comments on the Finding
     Although not required to comment, the Director, Operational Test and Evaluation
     agreed with the finding. For the complete text of the Director’s comments, see
     the Management Comments section of the report.

Recommendations, Management Comments, and Audit
  Response
     B. We recommend that the Army Deputy Chief of Staff for Operations and
     Plans, in coordination with the Army Chief Information Officer, update
     Army Regulation 70-1, “Army Acquisition Policy,” December 15, 1997, and
     Regulation 71-9, “Materiel Requirements,” April 30, 1997, to require that:

            1. Combat developers identify interoperability and supportability
     requirements in requirements documents and update the requirements
     throughout the life of the systems, as necessary, in accordance with DoD
     Directive 4630.5, “Interoperability and Supportability of Information
     Technology (IT) and National Security Systems (NSS)” January 11, 2002.

           2. Program managers use command, control, communications,
     computers, and intelligence support plans to document interoperability and
     supportability requirements in accordance with DoD Instruction 4630.8,
     “Procedures for Interoperability and Supportability of Information
     Technology (IT) and National Security Systems (NSS),” May 2, 2002.

            3. Program managers obtain the Joint Staff J-6 certifications for
     interoperability in accordance with Chairman of the Joint Chiefs of Staff
     Instruction 6212.01B, “Interoperability and Supportability of National
     Security Systems, and Information Technology Systems,” May 8, 2000.


                                         17
Army Deputy Chief of Staff for Operations and Plans Comments. The
Deputy Chief of Staff did not provide comments on the draft report. We request
that the Deputy Chief of Staff provide comments in response to the final report.

Principal Director for Enterprise Integrations Comments. The Principal
Director, responding for the Army Chief Information Officer, concurred, stating
that the Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
and the Army Deputy Chief of Staff for Operations and Plans have begun to
update Army Regulations 70-1 and 71-9 and expect to publish the updates by
early FY 2004 and mid-FY 2004, respectively. He stated that the
recommendations will be incorporated into the updates; however, he noted that
the program managers should not be obtaining interoperability certifications, as
addressed in Recommendation B.3., unless by exception.

The Principal Director also stated that interoperability certifications should be
conducted when the requirements or capabilities documentation is provided to the
Joint Staff for review and should include certification by the Joint Staff J-6, in
accordance with Chairman of the Joint Chiefs of Staff Instruction 6212.01B,
which will be replaced by Chairman of the Joint Chiefs of Staff
Instruction 6212.01C. In addition, he stated that the interoperability certification,
as described, is part of the new Chairman of the Joint Chiefs of Staff
Instruction 3170.01C, “Joint Capabilities Integration and Development System,”
June 24, 2003, and was a requirement in Chairman of the Joint Chiefs of Staff
Instruction 3170.01B. For the complete text of the Principal Director’s
comments, see the Management Comments section of the report.

Audit Response. Except for his qualification on obtaining interoperability
certifications, the Principal Director’s comments are responsive. Chairman of the
Joint Chiefs of Staff Instruction 3170.01C and Chairman of the Joint Chiefs of
Staff Instruction 6212.01B require program managers to obtain interoperability
certifications. Chairman of the Joint Chiefs of Staff Instruction 3170.01C states
that, for capability development documents and capability production documents
(previously referred to as ORDs), interoperability and supportability certifications
for National Security (NS) and information technology systems will be performed
in accordance with Chairman of the Joint Chiefs of Staff Instruction 6212.01B,
DoD Directive 4630.5, and DoD Instruction 4630.8.
        Chairman of the Joint Chiefs of Staff Instruction 6212.01B. Chairman
of the Joint Chiefs of Staff Instruction 6212.01B requires the Joint Staff J-6 to
certify all NS and information technology systems as interoperable with other NS
and information technology systems with which they exchange information. This
interoperability certification process addresses system interoperability
requirements, supportability, and total life-cycle oversight of warfighter
interoperability requirements.

       DoD Directive 4630.5. DoD Directive 4630.5 requires that certification
of NS and information technology systems will be cost-effective and completed
before new NS and information technology systems or new capabilities or
upgrades to existing NS and information technology systems are fielded.




                                     18
         DoD Instruction 4630.8. DoD Instruction 4630.8 requires the DoD
Components to certify which of the interoperability criteria have been met before
production and fielding approval for all new or modified NS and information
technology systems. Further, the Instruction requires the Chairman of the Joint
Chiefs of Staff, with the assistance of the Defense Information Systems Agency,
to certify that interoperability and supportability requirements for NS and
information technology systems are established, assessed, and verified for NS and
information technology systems acquisitions before production and fielding.

Accordingly, we request that the Principal Director clarify his response on
program managers obtaining interoperability certifications on an exception basis.

Director, Operational Test and Evaluation Comments. Although not required
to comment, the Director agreed with the recommendation. For the complete text
of the Director’s comments, see the Management Comments section of the report.




                                    19
                 C. Information Assurance Testing of
                    Army Systems
                 The Army testers did not consistently conduct IA testing for Army
                 acquisition programs because:

                          •   TRADOC, as the combat developer, did not coordinate with
                              the Army Test and Evaluation Command to fully identify IA
                              requirements in ORDs for testing Army programs with
                              interoperability and supportability requirements;

                          •   combat developers at TRADOC were not aware of their roles
                              and responsibilities in implementing the DoD Information
                              Technology Security Certification and Accreditation Process
                              (DITSCAP);

                          •   the Army Chief Information Officer did not verify that
                              program managers for Army acquisition programs with
                              information technology requirements prepared and maintained
                              an SSAA in accordance with the DITSCAP; and

                          •   the Assistant Secretary of the Army (Acquisition, Logistics,
                              and Technology) did not require SSAA signatories11 to
                              coordinate with the Army Test and Evaluation Command
                              throughout the acquisition cycle to minimize duplicative IA
                              testing efforts for Army systems subject to the DITSCAP.

                 As a result, milestone decision authorities could not be assured that
                 systems developed satisfied the IA requirements of availability, integrity,
                 authenticity, confidentiality, and nonrepudiation of information to meet
                 warfighter requirements as envisioned in the Quadrennial Defense Review
                 and Joint Vision 2020.

Defining Information Assurance Requirements for Testing
        TRADOC did not fully identify IA requirements in ORDs for testing Army
        acquisition programs with interoperability and supportability requirements
        because TRADOC did not coordinate with the Army Test and Evaluation
        Command when developing and updating ORDs. As a result, combat developers
        for only 3 of the 41 Army program offices surveyed included testable IA
        requirements12 in the applicable ORDs.



11
 The SSAA signatories include the information technology system program manager, the designated
 approving authority, the certification authority, and the user representative.
12
 Testable IA requirements are written in output-oriented and measurable terms in threshold and objective
 format with criteria and rationale for each.


                                                   20
        Information Assurance Requirements Policy. DoD Directive 5000.1, “The
        Defense Acquisition System,” May 12, 2003, requires acquisition managers to
        address IA for all weapons, C4I surveillance and reconnaissance, and
        information technology programs that depend on external information sources
        or that provide information to other DoD systems. In addition, DoD
        Instruction 5000.2 requires operational tester and evaluators to assess those
        programs. Further, Chairman of the Joint Chiefs of Staff Instruction 3170.01B,
        “Requirements Generation System,” April 15, 2001,13 requires all DoD systems
        that are used to enter, process, store, display, or transmit DoD information
        regardless of classification or sensitivity to address IA. The Instruction also
        requires the initial ORD to establish requirements describing the capabilities
        and characteristics of the proposed system. Further, the Instruction states that
        the requirements must be written in output-oriented and measurable terms in
        threshold and objective format, with criteria and rationale for each.

        In addition, DoD Directive 4630.5; DoD Directive 8500.1, “Information
        Assurance,” October 24, 2002; DoD Instruction 8500.2, “Information
        Assurance Implementation,” February 6, 2003; DoD Guidebook, “Interim
        Defense Acquisition Guidebook,” October 30, 2002; Army Regulation 70-1;
        and Army Regulation 73-1, “Test and Evaluation Policy,” January 7, 2002,
        establish additional requirements and guidance for IA requirements generation
        and for testing. Appendix F discusses the additional requirements and
        guidance.

        Testable Information Assurance Requirements. Based on our review of the
        41 Army programs surveyed, we determined whether the applicable ORDs and
        the corresponding TEMPs had IA requirements that could be measured, tested,
        and evaluated. Although 22 of the 41 ORDs contained IA requirements, only 3 of
        them were written in output-oriented and measurable terms.

        Identifying Information Assurance Requirements for Testing. TRADOC did
        not always identify testable IA requirements in ORDs for Army programs with
        interoperability and supportability requirements. Conversely, in a substantial
        number of instances, the Army Test and Evaluation Command did identify IA
        requirements for testing in system evaluation plans (SEPs),14 even when the ORD
        did not identify those requirements
                Army Training and Doctrine Command. Although required by
        Chairman of the Joint Chiefs of Staff Instruction 3170.01B and the TRADOC
        requirements generation guidance, TRADOC personnel stated that they did not
        require subordinate elements to develop testable IA requirements in ORDs for
        Army programs with interoperability and supportability requirements.



13
 Subsequent to the issuance of the draft audit report, the Joint Staff issued Chairman of the Joint Chiefs of
 Staff Instruction 3170.01C, “Joint Capabilities Integration and Development System,” June 24, 2003,
 canceled Chairman of the Joint Chiefs of Staff Instruction 3170.01B.
14
 The SEP documents the integrated test and evaluation strategy, which is the evaluation strategy and the
 test and simulation execution strategy that the testers and evaluators use throughout the system
 acquisition life cycle.


                                                     21
           For direction in preparing an ORD, TRADOC issued a “Guide for Development
           of Army Operational Requirements Documents,” October 2002, that provides a
           mandatory format for all Army-developed ORDs. The Guide requires the
           Directorates of Combat Development, as the user representatives, to address the
           defensive measures needed to ensure that IA requirements include availability,
           integrity, authentication, confidentiality, and nonrepudiation of the information to
           be exchanged and used. However, the Guide does not require user representatives
           to coordinate with Army testers to verify that IA requirements included in the
           ORDs are testable.

                    Army Test and Evaluation Command. To determine whether IA
           requirements in ORDs could be measured, tested, and evaluated, we contacted
           personnel from the Army Test and Evaluation Command, including
           representatives from the Army Evaluation Center, who are responsible for
           evaluating developmental and operational test results, and the Army Operational
           Test Command Headquarters, who are responsible for conducting operational
           testing.

                          Army Evaluation Center. Army Evaluation Center personnel
           stated that, when ORDs for systems with interoperability and supportability
           requirements did not identify testable IA requirements, they added testable IA
           requirements into the “Additional Issues” section of the respective program’s SEP
           and the subsequent system evaluation report (SER)15 for testing and evaluating
           the system’s IA capabilities. We reviewed the SEP or SER for 9 of the
           41 programs surveyed. For six of the nine programs, the Army Evaluation Center
           added IA requirements in the “Additional Issues” section of the SEPs or SERs.16
           For the remaining three programs, the Army Evaluation Center addressed IA
           requirements in other sections of the SEPs or SERs.

                          Army Operational Test Command Headquarters. To
           determine the effect that not having testable IA requirements in ORDs had on
           operational test results, we met with three of the Army Operational Test
           Command’s subordinate directorates: the Command, Control, Communications,
           and Computers Test Directorate, the Information and Electronic Warfare Test
           Directorate, and the Air Defense Artillery Test Directorate.

                                  Command, Control, Communications, and Computers
           Test Directorate. The IA procedures at the Command, Control, Communications,
           and Computers Test Directorate (the Directorate) required the operational testers
           to plan and conduct operational testing of IA requirements in the ORD for C4I
           acquisition programs only. For non-C4I acquisition programs, the Directorate
           used a draft test checklist to assess IA during operational testing. However,
           Directorate personnel advised that other subordinate directorates of the Army
           Operational Test Command did not universally use the draft IA test checklist.



15
 The SER documents independent evaluation findings and recommendations on system operational
 effectiveness, suitability, and survivability.
16
     The SEPs and SERs were from separate programs.


                                                      22
                           Information and Electronic Warfare Test Directorate.
    Personnel at the Information and Electronic Warfare Test Directorate (the
    Directorate) stated that their ability to test IA requirements for Army systems is
    impaired when the ORDs for Army systems omit testable IA requirements. In
    those cases, the Directorate cannot conduct tests to determine whether the IA for
    those systems are operationally effective, suitable, and survivable for the intended
    use by the warfighter.

                           Air Defense Artillery Test Directorate. Personnel at the
    Air Defense Artillery Test Directorate also stated that, when the ORDs for Army
    systems omitted testable IA requirements, they were unable to conduct tests to
    determine whether the IA for those systems were operationally effective, suitable,
    and survivable for the intended use by the warfighter.

Combat Developer Awareness of DITSCAP Requirements
    Combat developers at TRADOC were not aware of their roles and
    responsibilities in implementing the DITSCAP because the Assistant Secretary
    of the Army (Acquisition, Logistics, and Technology) had not updated Army
    Regulation 70-1 to identify the roles and responsibilities of combat developers
    concerning DITSCAP requirements.

    DITSCAP Requirements. DoD Instruction 5200.40, “DoD Information
    Technology Security Certification and Accreditation Process (DITSCAP),”
    December 30, 1997, establishes the DITSCAP for security certification and
    accreditation of unclassified and classified information technology. The
    DITSCAP sets forth the activities and management structure to certify and
    accredit information technology systems that will maintain the security posture
    of the Defense Information Infrastructure. Further, the Instruction states that
    the interests of system users are vested in the user representatives, who:

           •   are concerned with system availability, access, integrity,
               functionality, and performance;

           •   are the liaison for the users during the initial development of a
               system;

           •   define the system mission and functionality; and

           •   ensure that the user’s interests are maintained throughout system
               development, modification, integration, acquisition, and
               deployment.

    Army Combat Developer Involvement in the DITSCAP. Army acquisition
    policy did not include the DITSCAP requirements of DoD Instruction 5200.40
    concerning the roles and responsibilities of user representatives. To determine the
    user representatives’ involvement and awareness of their roles and responsibilities
    in the implementation of the DITSCAP, we interviewed cognizant personnel at



                                         23
            six Directorates of Combat Development within TRADOC. The Directorates of
            Combat Development were located at:

                    •    Fort Bliss, Texas;

                    •    Fort Benning, Georgia;

                    •    Fort Gordon, Georgia;

                    •    Fort Knox, Kentucky;

                    •    Fort Leonard Wood, Missouri; and

                    •    Fort Sam Houston, Texas.

            Personnel at four of six Directorates of Combat Development stated that they
            were not involved in the implementation of the DITSCAP. Instead, they were of
            the opinion that Army program managers were responsible for implementing the
            DITSCAP for their respective programs. Accordingly, the Directorates of
            Combat Development were not exercising their required roles and responsibilities
            for resolving schedule, budget, security, functionality, and performance issues
            associated with the DITSCAP.

Preparing and Maintaining System Security Authorization
  Agreements
            SSAA Policy. DoD Instruction 5200.40 and Army Regulation 25-1, “Army
            Information Management,” May 31, 2002, provide policies and procedures
            concerning the DITSCAP, including SSAAs

                    DoD Instruction 5200.40. DoD Instruction 5200.40 states that the
            DITSCAP applies to the acquisition, operation, and sustainment of any DoD
            system that collects, stores, transmits, or processes unclassified or classified
            information. Further, the Instruction states that a critical element of the
            DITSCAP is the agreement among the information technology system program
            manager,17 the designated approving authority, the certification authority, and
            the user representative to resolve critical schedule, budget, security,
            functionality, and performance issues. This agreement is documented in the
            SSAA that is used to guide and document the results of the certification and
            accreditation process. The SSAA establishes a binding agreement on the level
            of security required before system development or changes begin. The SSAA is
            used throughout the entire DITSCAP to guide actions, document decisions,
            specify information technology security requirements, document certification
            tailoring and level of effort, identify possible solutions, and maintain
            operational systems security.

17
     The term program manager refers to the acquisition organization’s program manager during the system
     acquisition, the system manager during the operation of the system, or the maintenance organization’s
     program manager when a system is undergoing a major change.


                                                      24
        Army Regulation 25-1. Army Regulation 25-1 requires the Army Chief
Information Officer to validate all warfighting requirements through the review
of appropriate requirements documents. Validation criteria will include
compliance with information security requirements. The Regulation also
requires that all information systems and networks be subjected to an established
certification and accreditation process, which verifies that the required levels of
IA are achieved and sustained throughout their life cycle. Further, the
Regulation states that information systems and networks will be certified and
accredited in accordance with DoD Instruction 5200.40.

SSAA Implementation. To determine whether Army acquisition program
offices with information technology requirements had an SSAA, we requested
SSAAs from the program managers for the 41 Army program offices surveyed.
We contacted the Army Test and Evaluation Command, which conducts the
Army’s operational testing and evaluation, to determine whether it was provided
SSAAs for use in conducting operational testing.

        SSAA Survey. In the survey questionnaire on the implementation of
interoperability and IA requirements, we asked the program managers the
following question concerning SSAAs: Of the following documentation normally
provided to the milestone decision authority at the system development and
demonstration decision point and the production and deployment decision point,
which adequately describes IA requirements and strategies? In response, 19 of the
41 program managers believed that the SSAA best described the IA requirements
and strategies for the system development and demonstration milestone decision
and 28 of the 41 program managers believed that it best described the IA
requirements and strategies for the production and deployment milestone decision
(Appendix D contains the results of the survey). If the program managers do not
prepare the SSAAs before milestone decision points, the milestone decision
authority cannot be assured that the program manager, the designated approving
authority, the certification authority, and the user have all agreed on the method for
implementing information technology security requirements and maintaining
operational systems security.

       SSAA Request. Based on our request, 35 of the 41 Army program offices
surveyed provided an SSAA. We did not determine whether the contents of the
SSAAs were adequate. However, the SSAA signatories should have prepared an
SSAA for all 41 programs because it is the formal agreement among the
designated approving authority, the certification authority, the information
technology system user representative, and the program manager to guide actions,
document decisions, specify information technology security requirements,
document certification tailoring and level of effort, identify possible solutions, and
maintain operational systems security.

     Army Test and Evaluation Command. The Army Operational Test
Command and the Army Evaluation Center within the Army Test and Evaluation
Command did not always receive SSAAs because the:

       •   Army Chief Information Officer did not ensure that program managers
           for Army acquisition programs with information technology



                                     25
                    requirements prepared and maintained an SSAA in accordance with
                    Army Regulation 25-1, and

                •   Assistant Secretary of the Army (Acquisition, Logistics, and
                    Technology) had not updated Army Regulation 70-1 to require the
                    SSAA signatories to coordinate with the Army Test and Evaluation
                    Command throughout the acquisition cycle for Army systems subject
                    to the DITSCAP.

                       Army Operational Test Command. Personnel at the Army
       Operational Test Command stated that Army program offices did not always
       provide them with SSAAs even though they made repeated requests for the
       SSAAs. Without an SSAA, the operational testers cannot adequately conduct IA
       testing to determine whether planned and implemented security measures satisfy
       the system’s ORD and information technology security requirements. Further,
       the operational testers cannot determine the level of risk associated with operating
       the system and the extent of security testing required.

                       Army Evaluation Center. Personnel at the Army Evaluation
       Center stated that SSAAs were essential for their IA risk assessments. However,
       the personnel stated that they did not always receive complete SSAAs from Army
       program managers. The personnel attributed that condition to DITSCAP being
       completely separate from the acquisition process. As a result, evaluators at the
       Army Evaluation Center have to incorporate additional IA test requirements into
       their SEPs to determine whether the systems with IA requirements are
       operationally effective and suitable based on the systems availability, access,
       integrity, functionality, and performance.

Coordination of DITSCAP Testing and Program Evaluation
       DITSCAP Coordination Requirements. DoD Instruction 5000.2; DoD
       Guidebook, “Interim Defense Acquisition Guidebook,” October 30, 2002;18 and
       Director, Operational Test and Evaluation memorandum, “Policy for Operational
       Test and Evaluation of Information Assurance,” November 17, 1999, discuss the
       coordination of DITSCAP testing.
              DoD Instruction. DoD Instruction 5000.2 requires the program manager,
       together with the user and test and evaluation communities, to coordinate
       developmental test and evaluation, operational test and evaluation, live-fire test
       and evaluation, family-of-systems interoperability testing, IA testing, and
       modeling and simulation activities into an efficient process, integrated with
       requirements definition and systems design and development.

               DoD Guidebook. The Guidebook states that IA testing should be
       conducted on information systems to ensure that planned and implemented
       security measures satisfy ORD and SSAA requirements when the system is
       installed and operated in its intended environment. Further, the Guidebook states
18
 Formerly DoD Regulation 5000.2-R. The former DoD Regulation 5000.2-R will serve as the guidebook
 while the Defense Acquisition Policy Working Group creates a streamlined guidebook.


                                               26
        that the program manager, the operational test and evaluation authority, and the
        designated approving authority should coordinate and determine the level of risk
        associated with operating a system and the extent of security testing19 required.20

                Director, Operational Test and Evaluation Policy. Director,
        Operational Test and Evaluation memorandum, “Policy for Operational Test and
        Evaluation of Information Assurance,” November 17, 1999, requires the
        operational test agencies for programs subject to the DITSCAP to coordinate with
        the SSAA signatories throughout the acquisition cycle to minimize duplicative
        efforts by the operational test agencies. Further, the memorandum requires the
        operational test agencies and the SSAA signatories to maximize opportunities to
        meet operational requirements through concurrent testing, particularly in
        DITSCAP vulnerability assessments, security tests and evaluations, and
        penetration testing.

        Coordination and Use of DITSCAP Test Results. To determine how
        effectively the SSAA signatories, specifically program managers, were
        coordinating with the Army Evaluation Center throughout the acquisition cycle to
        minimize duplicative IA testing efforts, we contacted personnel from the Army
        Evaluation Center and reviewed SERs. The SER documents independent
        evaluation findings and recommendations on system operational effectiveness,
        suitability, and survivability that enable the milestone decision authority to make
        an informed decision concerning the readiness of the system for production.

                Army Evaluation Center. Personnel at the Army Evaluation Center
        stated that the DITSCAP is a key source of data for their IA evaluations.

                        Input Into DITSCAP Testing. Personnel at the Army Evaluation
        Center stated that the Army Evaluation Center has limited input into DITSCAP
        testing and that its input to the DITSCAP depends on the individual program
        manager. Although the DITSCAP does not define a role for the Army Test and
        Evaluation Command, the personnel stated that the Army Evaluation Center
        identifies the IA requirements for the test and evaluation process and informs the
        program manager when the Army Test and Evaluation Command will conduct an
        IA evaluation on the system. The Army Evaluation Center relies on DITSCAP
        testing to assess whether the system satisfied IA requirements; however, the
        personnel stated that program managers did not always provide the results of the
        DITSCAP test results in time for inclusion in their SER. As a result, not all Army
        SERs contain an evaluation of whether the system satisfies IA requirements.

                        Specific Army Guidance. Army Pamphlet 73-1, “Test and
        Evaluation in Support of System Acquisition,” February 28, 1997, does not
        clearly state the Army Evaluation Center’s responsibilities regarding the testing of
        system IA requirements.21 To compensate, the Army Evaluation Center was
19
 Security testing is the examination and analysis of the safeguards, which are required to protect an
 information technology system, to determine the security posture of that system.
20
 The April 2002 and the June 2001 versions of DoD Regulation 5000.2-R have these same requirements
 as the DoD Guidebook.
21
 Army Regulation 25-1, “Army Information Management,” May 31, 2002; also did not address the testers
 roles and responsibilities regarding information management.


                                                    27
     using the procedures in the Director, Operational Test and Evaluation policy
     memorandum to determine whether DITSCAP testing of system IA requirements
     was sufficient or whether the system required additional IA testing during
     operational testing. On May 30, 2003, the Army Test and Evaluation
     Management Agency issued an update to Army Pamphlet 73-1. The IA section of
     the update states that the system evaluator must ensure that software is evaluated,
     independently tested, and verified to ensure it meets the minimum standards for
     security and reliability prior to release for operation. The Army Test and
     Evaluation Command was incorporating the guidance from the Director,
     Operational Test and Evaluation policy memorandum into an Army Evaluation
     Center handbook.

             System Evaluation Reports. Of the 41 Army programs surveyed, we
     identified 5 programs where the Army Evaluation Center used Army Operational
     Test Command results from tests conducted in 2002 to prepare SERs. For three
     of the five SERs, the Army Evaluation Center stated in the applicable SERs that
     DITSCAP test data were not available to the evaluators to use as a data source for
     their IA evaluations. For the remaining two SERs, the Army Evaluation Center
     used DITSCAP test data in its IA evaluations.

     The Army Evaluation Center also identified two additional SERs that resulted
     from 2002 test results for systems other than the 41 Army programs that we
     surveyed. DITSCAP test data was not available to the Army Evaluation Center in
     preparing those IA evaluations. The Army Evaluation Center attributed the
     nonavailability of DITSCAP test data to the need for an Army requirement for the
     SSAA signatories, including the applicable program managers, to coordinate with
     the Army Test and Evaluation Command throughout the acquisition cycle for
     Army systems subject to the DITSCAP. As a result, the Army Test and
     Evaluation Command did not always have the DITSCAP test results for use in
     system evaluations to advise the decision review principals and milestone
     decision authority on the adequacy of testing; the system’s effectiveness,
     suitability, and survivability; as well as recommendations for future test and
     evaluation and system improvements.

Effect of the Availability of IA Testing Results
     Because Army testers did not conduct IA testing and evaluation before system
     production decisions, milestone decision authorities did not have assurance that
     systems developed satisfied the IA requirements of availability, integrity,
     authenticity, confidentiality, and nonrepudiation of information to meet
     warfighter requirements as envisioned in the Quadrennial Defense Review and
     Joint Vision 2020.

Management Comments on the Finding
     Although not required to comment, the Director, Operational Test and Evaluation
     agreed with the finding. For the complete text of the Director’s comments, see
     the Management Comments section of the report.


                                         28
Recommendations, Management Comments, and Audit
  Response
    C.1. We recommend that the Assistant Secretary of the Army (Acquisition,
    Logistics, and Technology), in coordination with the Director, Test and
    Evaluation Management Agency, update Army Regulation 70-1, “Army
    Acquisition Policy,” December 15, 1997, to:

           a. Require the Army Training and Doctrine Command to coordinate
    with the Army Test and Evaluation Command:

                  (1) When developing testable information assurance
    requirements for inclusion in operational requirements documents for new
    Army acquisition programs with interoperability and supportability
    requirements.

                  (2) When updating existing operational requirements
    documents for Army acquisition programs with interoperability and
    supportability requirements to ensure that those documents have testable
    information assurance requirements.

    Acting Deputy for Systems Management, Office of the Assistant Secretary of
    the Army (Acquisition, Logistics, and Technology) Comments. The Acting
    Deputy concurred, stating that the Army is updating Army Regulation 70-1 and
    expects to publish it in late November 2003. Further, he stated that the Army will
    not repeat requirements in the DoD 5000 series or Army Regulation 73-1 in the
    updated regulation. The Acting Deputy also stated that this approach meets the
    intent of the recommendations in the report to ensure that:

           •   program managers develop C4I support plans,

           •   program managers achieve joint interoperability testing and
               certifications for their systems,

           •   testable IA requirements are clearly identified, and

           •   the DITSCAP identifies the responsibilities of the combat developers.

    For the complete text of the Acting Deputy’s comments, see the Management
    Comments section of the report.

    Principal Director for Enterprise Integration Comments. Although not
    required to comment, the Principal Director disagreed with the recommendation,
    stating that we should revise the recommendation because including testable IA
    requirements in new or updated ORDs would neither eliminate duplicative testing
    nor meet DITSCAP requirements. The Principal Director also stated that, to meet




                                        29
DITSCAP requirements, the designated approving authority, the certification
authority, the program manager, and the user representative must:

       •   determine the applicable governing national, DoD, and Army security
           requirements, network connection rules, and configuration
           management requirements for a system; and

       •   agree on the security and certification level for the system based on
           those requirements.

In addition, he stated that those requirements are documented in an applicable
Requirements Traceability Matrix, which is a DITSCAP-required appendix to the
associated SSAA. The Principal Director also stated that the system must be
tested against those requirements in the Requirements Traceability Matrix, not
those in the ORD. Further, he stated that the results of the certification tests
should be available to the designated approving authority, the program manager,
and the user representative before the system undergoes operational testing. The
Principal Director also stated that the certification authority, who must be
independent from the program manager, is one of the signatories of the SSAA.
For the complete text of the Principal Director’s comments, see the Management
Comments section of the report.

Audit Response. The Principal Director’s comments conflict with DoD
guidance. Including testable IA requirements in new or updated ORDs should
minimize duplicative testing and meet DITSCAP requirements as stipulated in
DoD Instruction 5000.2 and Director, Operational Test and Evaluation
memorandum, “Policy for Operational Test and Evaluation of Information
Assurance.” In addition, the DoD Guidebook states that IA testing should be
conducted on information systems to ensure that planned and implemented
security measures satisfy ORD and SSAA requirements when the system is
installed and operated in its intended environment. Further, DoD
Manual 8510.1-M, “Department of Defense Information Technology Security
Certification and Accreditation Process (DITSCAP) Application Manual,”
July 31, 2000, states that the SSAA is to be tailored to meet the characteristics of
the information system, operational requirements, security policy, and prudent
risk management. Tailoring permits the DITSCAP to remain responsive to
operational requirements and priorities.

Director, Operational Test and Evaluation Comments. Although not required
to comment, the Director agreed with the recommendation. For the complete text
of the Director’s comments, see the Management Comments section of the report.

      b. Identify roles and responsibilities of combat developers in the DoD
Information Technology Security Certification and Accreditation Process.

Acting Deputy for Systems Management Comments. The Acting Deputy
concurred, stating that the Army is updating Army Regulation 70-1 to ensure that
the DITSCAP identifies the responsibilities of the combat developers.

Principal Director for Enterprise Integration Comments. Although not
required to comment, the Principal Director agreed with the recommendation,


                                     30
stating that the Army is replacing Army Regulation 380-19, “Information Systems
Security,” February 27, 1998, with Army Regulation 25-IA that will define
DITSCAP roles and responsibilities for the designated approving authority, the
program manager, and the certification authority. Further, he agreed with
designating TRADOC as the user representative in Army Regulation 70-1.

Director, Operational Test and Evaluation Comments. Although not required
to comment, the Director agreed with the recommendation.

       c. Require the system security authorization agreement signatories to
coordinate with the Army Test and Evaluation Command throughout the
acquisition cycle for Army systems subject to the DoD Information
Technology Security Certification and Accreditation Process.

Acting Deputy for Systems Management Comments. The Acting Deputy
concurred, stating that the Army is updating Army Regulation 70-1 to ensure that
testable IA requirements are clearly identified.

Principal Director for Enterprise Integration Comments. Although not
required to comment, the Principal Director stated that the report implies that the
Army Test and Evaluation Command should act in the capacity of the DITSCAP
certification authority. Further, he stated that, in the long term, the
recommendation has merit; however, for the Army Test and Evaluation
Command to perform the DITSCAP certification tests, the Command must
employ personnel who can meet or exceed the qualifications and standards of the
National Security Telecommunications and Information Systems Security
Instruction 4015 and the Army Regulation 380-53, “Information Systems Security
Monitoring,” April 29, 1998.

Audit Response. The intent of the recommendation was not to have the Army
Test and Evaluation Command act as the DITSCAP certification authority, but
instead, to have SSAA signatories coordinate with the Army Test and Evaluation
Command so that the Command would have DITSCAP test results in time for
inclusion in their SERs.

Director, Operational Test and Evaluation Comments. Although not required
to comment, the Director agreed with the recommendation.

C.2. We recommend that the Army Chief Information Officer validate all
warfighting requirements through the review of appropriate requirements
documents to ensure that a system security authorization agreement has been
prepared for Army systems subject to the DoD Information Technology
Security Certification and Accreditation Process, in accordance with Army
Regulation 25-1, “Army Information Management,” May 31, 2002.

Principal Director for Enterprise Integrations Comments. The Principal
Director, responding for the Army Chief Information Officer, concurred, stating
that Army Regulation 380-19, which is being replaced with Army
Regulation 25-IA, is the governing regulation for the certification and
accreditation of Army systems. Further, he stated that the Army Information
Assurance Directorate validates security requirements for Army systems by


                                    31
conducting reviews of capability development documents (formerly called ORDs)
and SSAAs. The Principal Director also stated that the Army Information
Technology Security Registry is being enlarged to include the security parameters
of Army information technology systems required by the Federal Information
Security Management Act. In addition, he stated that the Army Information
Technology Security Registry will track the accreditation status of information
technology systems as well as other security-relevant parameters. The Principal
Director stated that the Information Assurance Directorate assesses IA strategies,
required by Section 8088 of the Clinger Cohen Act, which support system
milestone decisions.

Director, Operational Test and Evaluation Comments. Although not required
to comment, the Director agreed with the recommendation.




                                    32
Appendix A. Scope and Methodology
   We reviewed documentation dated from March 1994 to May 2003. To
   accomplish the audit objective, we reviewed:

          •   the Army’s efforts to implement interoperability and information
              assurance requirements during the acquisition process;

          •   requirements documentation for interoperability and information
              assurance requirements;

          •   the controls over the Joint Staff (J-6) interoperability certification
              process and the Joint Command, Control, Communications,
              Computers, and Intelligence Program Assessment Tool; and

          •   applicable criteria.

   We also contacted the staffs of the Chairman of the Joint Chiefs of Staff; the
   Assistant Secretary of Defense (Networks and Information Integration); the
   Assistant Secretary of the Army (Acquisition, Logistics, and Technology); the
   Defense Information Systems Agency; the Army Training and Doctrine
   Command; the Office of the Army Chief Information Officer; the Army Deputy
   Chief of Staff for Operations and Plans; the Army Test and Evaluation
   Management Agency; the Army Test and Evaluation Command.

   Further, we judgmentally selected 41 new or modified Army acquisition programs
   with research and development funding that interface with other systems to:

          •   obtain the program managers’ perspectives on interoperability and
              IA requirements;

          •    review ORDs, C4I Support Plans, TEMPs, and SSAAs;
          •    review the status of interoperability testing by the Joint
               Interoperability Test Command; and
           • determine the stage of each program in the Joint Command, Control,
               Communications, Computers, and Intelligence Program Assessment
               Tool for Joint Staff (J-6) interoperability certification.
   We performed this audit from July 2002 through June 2003 in accordance with
   generally accepted government auditing standards. We did not review the
   management control program because the audit focused on interoperability and
   IA requirements and review processes; therefore, our scope was limited to those
   specific requirements and processes.

   Use of Computer-Processed Data. We did not rely on computer-processed data
   to perform this audit.




                                        33
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD weapon systems acquisition high-risk area.

Prior Coverage
    During the last 5 years, the General Accounting Office, the Inspector General of the
    DoD, and the Defense Science Board have issued five reports addressing
    interoperability and IA requirements for Defense systems. Unrestricted General
    Accounting Office and Inspector General of the Department of Defense reports can
    be accessed at http://www.gao.gov and http://www.dodig.osd.mil/audit/reports,
    respectively.

    General Accounting Office (GAO)
           GAO Report No. NSIAD-98-73, “Joint Military Operations: Weakness in
           DoD’s Process for Certifying C4I Systems’ Interoperability,” March 1998

    Inspector General of the Department of Defense (IG DoD)
           IG DoD Report No. D-2003-011, “Implementation of Interoperability and
           Information Assurance Policies for Acquisition of DoD Weapon
           Systems,” October 17, 2002

           IG DoD Report No. D-2001-176, “Survey of Acquisition Manager
           Experience using the DoD Joint Technical Architecture in the Acquisition
           Process,” August 22, 2001

           IG DoD Report No. D-2001-121, “Use of the DoD Joint Technical
           Architecture in the Acquisition Process,” May 14, 2001

    Defense Science Board
           Defense Science Board Task Force, “Protecting the Homeland, Report of
           the Defense Science Board Task Force on Defensive Information
           Operations, 2000 Summer Study, Volume II,” March 2001




                                        34
Appendix B. Glossary
   Accreditation. Accreditation is the formal declaration by the designated
   approving authority that an information technology system is approved to operate
   in a particular security mode using a prescribed set of safeguards at an acceptable
   level of risk.

   Acquisition Category. An acquisition category is an attribute of an acquisition
   program that determines the program’s level of review, decision authority, and
   applicable procedures. The acquisition categories consist of I, major Defense
   acquisition programs; IA, major automated information systems; II, major
   systems; III, programs not meeting the criteria for acquisition categories I, IA, or
   II; and IV, programs designated as such by the Army, Navy, and Marine Corps.

   Advanced Concept Technology Demonstration. An advanced concept technology
   demonstration is used to determine the military utility of proven technology and to
   develop the concept of operations that will optimize effectiveness. Advanced
   concept technology demonstrations are not themselves acquisition programs, but
   are designed to provide a residual, usable capability upon completion, and
   possibly transition into acquisition programs. Funding is programmed to support
   the demonstration for up to 2 years in the field.

   Architecture. An architecture is the structure of components, their
   interrelationships, and the principal guidelines governing their design and
   evolution over time.

   Army Enterprise Infostructure-Transport. The Army Enterprise
   Infostructure-Transport will establish one Army network to support all Army
   applications. The Infostructure establishes a network-centric environment that
   enables seamless communications, anytime, anywhere. The Army Enterprise
   Infostructure-Transport concept is the approach that the Army will use to outline
   how each system will interface within the GIG to achieve joint interoperability.

   Capstone Requirements Document. A capstone requirements document is a
   document that contains capabilities-based requirements that facilitate the
   development of individual ORDs by providing a common framework and
   operational concept to guide their development. It is an oversight tool containing
   overarching requirements for a system-of-systems or family-of-systems.

   Certification Authority. Certification authority is the official responsible for
   performing the comprehensive evaluation of the technical and nontechnical
   security features of an information technology system and other safeguards to
   determine the extent to which a particular design and implementation meet a set
   of specified security requirements.

   Combat Developer. A combat developer is the command or agency that
   formulates and documents operational concepts, doctrine, organizations, and or
   materiel requirements (mission need statements and operational requirements
   documents) for assigned mission areas and functions. A combat developer serves


                                        35
as the user representative during acquisitions for their approved materiel
requirements as well as doctrine and organization developments.

Command, Control, Communications, Computers, and Intelligence Support
Plan. A C4I support plan describes system dependencies and interfaces in
sufficient detail to enable program managers and operational testers to test
interoperability key performance parameters derived from information exchange
requirements.

Command, Control, Communications, Computers, and Intelligence
Surveillance and Reconnaissance Architecture Framework. The C4I
surveillance and reconnaissance architecture framework provides rules, guidance,
and product descriptions for developing and presenting different architectural
views of a given system to ensure a common denominator for understanding,
comparing, and integrating architectures across DoD.

Critical Operational Issue. A critical operational issue is a key operational
effectiveness issue or operational suitability issue that must be examined in the
operational test and evaluation to determine the system’s capability to perform its
mission.

Defense Information Infrastructure. Defense information infrastructure is the
seamless web of communications networks, computers, software, databases,
applications, data, security services, and other capabilities that meets the
information processing and transport needs of DoD users in peace and in all
crises, conflict, humanitarian support, and wartime roles.

Defense Information Infrastructure Common Operating Environment. The
Defense Information Infrastructure Common Operating Environment is a mission
application independent architecture comprising reusable software and a set of
guidelines based on the Joint Technical Architecture.

Designated Approving Authority. The designated approving authority is an
official with the authority to formally assume responsibility for operating a
system at an acceptable level of risk. The term designated approving authority is
synonymous with designated accrediting authority and delegated accrediting
authority.

Developmental Test and Evaluation. Developmental test and evaluation is any
engineering type of test used to verify the status of technical progress, verify that
design risks are minimized, substantiate achievement of contract technical
performance, and certify readiness for initial operational testing. Generally, those
tests are instrumented and measured by engineers, technicians, or soldier
operator-maintainer test personnel in a controlled environment to facilitate failure
analysis.

DoD Information Technology Security Certification and Accreditation
Process (DITSCAP). The DITSCAP is the standard DoD process for identifying
information security requirements, providing security solutions, and managing
information system security activities.



                                     36
DITSCAP Certification. DITSCAP certification is the comprehensive
evaluation of the technical and nontechnical security features of an information
technology system and other safeguards made in support of the accreditation
process to establish the extent that a particular design and implementation meets a
set of specified security requirements.

Enterprise Architecture. An enterprise architecture is the explicit description
and documentation of the current and desired relationships among business and
management processes and information technology. The enterprise architecture
describes the “current architecture” and “target architecture” to include the rules,
standards, and system life cycle information to optimize and maintain the
environment that the agency wishes to create and maintain by managing its IT
portfolio.

Evolutionary Acquisition. Evolutionary acquisition is an acquisition approach
in which the ultimate capability delivered to the user is divided into two or more
blocks. Block 1 provides the initial deployment capability, a usable increment of
capability called for in the ORD. The remaining capability is provided in
subsequent blocks. The allocation of requirements to be achieved in each
remaining block may be known and defined at the beginning of the block
program, or may be defined for particular blocks “lead time away” from the start
of work beginning on a block, based on the user’s increased understanding of the
delivered capability, the evolving threat, or available technology.

Global Information Grid. The Global Information Grid provides the foundation
for network-centric warfare, information superiority, decision superiority, and
ultimately, full spectrum dominance. The GIG includes any system, equipment
software, or service that transmits information to, receives information from,
routes information among or interchanges information among other equipment,
software, and services. Non-GIG information technology is stand-alone, self-
contained, or embedded information technology that is not and will not be
connected to the enterprise network.

Information Assurance. Information assurance is information operations that
measure, protect, and defend the information and information systems by
ensuring their availability, integrity, confidentiality, authentication and
nonrepudiation. Information assurance provides for the restoration of information
systems by incorporating protection, detection, and reaction capabilities.

Information Exchange Requirements. Information exchange requirements
characterize the information exchanges to be performed by a proposed system and
identify who exchanges what information with whom, why the information is
necessary, and how the users will employ that information.

Information Management. Information management consists of activities
required to coordinate, plan, organize, analyze, integrate, evaluate, and control
information resources effectively.

Information System. An information system is a set of information resources
organized for the collection, storage, processing, maintenance, use, sharing,
dissemination, disposition, display, or transmission of information. An


                                     37
information system includes automated information system applications,
enclaves, outsourced information-technology-based processes, and platform
information technology interconnections.

Information Technology. Information technology is the hardware, firmware,
and software used as part of the information system to perform DoD information
functions. Information technology includes computers, telecommunications,
automated information systems, automatic data processing equipment, and any
assembly of computer hardware, software, and firmware configured to collect,
create, communicate, compute, disseminate, process, store, and control data or
information.

Interoperability. Interoperability is the ability of systems, units, or forces to
provide services to or accept services from other systems, units, or forces and to
use the services so exchanged to operate effectively together.

Interoperability Certification. Certification as it applies to interoperability is a
formal statement of adequacy provided by a responsible agency (usually Joint
Staff) attesting that a system has met its interoperability and supportability
requirements.

Joint Mission Area. A joint mission area is a functional group of joint tasks and
activities that share a common purpose and facilitate joint force operations.

Joint Operational Architecture. A joint operational architecture describes tasks
and activities, operational elements, and information flows required to accomplish
or support military operations; defines types of information exchanged, frequency
of exchange, which tasks and activities are supported by information exchanges,
and nature of information exchanges in detail sufficient to ascertain specific
interoperability requirements.

Joint Requirements Oversight Council. The Joint Requirements Oversight
Council assists the Chairman of the Joint Chiefs of Staff in identifying and
assessing the priority of joint military requirements (including existing systems
and equipment) to meet the national military strategy. The council, chaired by the
Vice Chairman of the Joint Chiefs of Staff and consisting of all the Vice Chiefs of
the Military Departments including the Assistant Commandant of the Marine
Corps, directly supports the Defense Acquisition Board through review,
validation, and approval of key cost, schedule, and performance parameters at the
start of the acquisition process, before each milestone review, and as requested by
the Under Secretary of Defense for Acquisition, Technology, and Logistics.

Joint Technical Architecture. The Joint Technical Architecture is a common set
of mandatory information technology standards, which are primarily interface
standards and guidelines to be used by all emerging systems and systems
upgrades, including advanced concept technology demonstrations. The Joint0
Technical Architecture can be used to establish a system’s technical architecture,
and is applicable to all C4I and automated information systems and the interfaces
of other key assets, such as weapon systems and sensors, with C4I systems.




                                     38
        Key Performance Parameters. Key performance parameters are a critical
        subset of the performance parameters found in the ORD. Each key performance
        parameter has a threshold and an objective value. Key performance parameters
        represent those capabilities or characteristics so significant that failure to meet the
        threshold value of performance can be cause for the concept or system selected to
        be reevaluated or the program to be reassessed or terminated.

        Mission Need Statement. A mission need statement is a formatted non-system-
        specific statement containing operational capability needs that is written in broad
        operational terms.

        National Security System. A national security system is any telecommunication
        or information system operated by the U.S. Government, whose function,
        operation, or use involves intelligence activities, cryptologic activities related to
        national security, command and control of military forces, equipment that is an
        integral part of a weapon system, or is critical to the direct fulfillment of military
        or intelligence missions.

        Network-Centric Warfare. Network-centric warfare22 allows a warfighting
        force to achieve improved information positions in the form of common
        operational pictures that provide the basis for shared situational awareness and
        knowledge, and a resulting increase in combat power.

        Objective. The objective is the performance value that is desired by the user and
        which the program manager is attempting to obtain. The objective value
        represents an operationally meaningful, time critical, and cost effective increment
        above the performance threshold for each program parameter.

        Objective Force. The Objective Force will be a system of systems, networked
        internally and externally through a responsive, reliable, mobile, non-line-of-sight,
        and commander-and-executive-centric command and control capability. The
        Objective Force will leverage joint/interagency reachback and Army direct
        downlink capabilities for intelligence, personnel and force planning,
        administration, technical engineering, information operations and logistical
        support.

        Operational Architecture View. The operational architecture view is a
        description of the tasks and activities, operational elements, and information
        flows required to accomplish or support a military operation.

        Operational Effectiveness. Operational effectiveness is the overall degree of
        mission accomplishment of a system when representative personnel use the
        system in the environment planned or expected for operational employment of the
        system, considering organization, doctrine, tactics, survivability, vulnerability,
        and threat.


22
 An in-depth discussion of network-centric warfare is provided in the book, Network Centric Warfare:
 Developing and Leveraging Information Superiority, 2nd Edition (Revised), by David S. Alberts, John J.
 Garstka, and Frederick P. Stein, C4I Surveillance and Reconnaissance Cooperative Research Program,
 August 1999.


                                                  39
Operational Requirements Document. The operational requirements document
states the user’s objectives and minimum acceptable requirements for the
operational performance of a proposed concept or system.

Operational Suitability. Operational suitability is the degree to which a system
can be placed satisfactorily in field use with consideration being given to
availability, compatibility, transportability, interoperability, reliability, wartime
usage rates, maintainability, safety, human factors, manpower supportability,
logistic supportability, natural environmental effects, documentation, and training
requirements.

Operational Test and Evaluation. Operational test and evaluation is field
testing, under realistic conditions, of any item or component of weapons,
equipment, or munitions to determine their effectiveness and suitability for use in
combat by typical military users and the evaluation of the results of such tests.

Penetration Testing. Penetration testing assesses a system’s ability to withstand
intentional attempts to circumvent system security features by exploiting
technical security vulnerabilities. Penetration testing may include insider and
outsider penetration attempts based on common vulnerabilities for the technology
being used.

Program. A program is an acquisition funded by research, development, test and
evaluation or procurement appropriations, or both, with the express objective of
providing a new or improved capability in response to a stated mission need or
deficiency.

Program Manager. Program manager refers to the acquisition organization’s
program manager during the system acquisition, the system manager during the
operation of the system, or the maintenance organization’s program manager
when a system is undergoing a major change.

Risk. Risk is a combination of the likelihood that a threat will occur, the
likelihood that a threat occurrence will result in an adverse effect, and the severity
of the resulting adverse effect.
Survivability. Survivability is the capability of a system to avoid or withstand a
man-made hostile environment without suffering an abortive impairment of its
ability to accomplish its designated mission.

System. A system is the organization of hardware, software, materiel, facilities,
personnel, data, and services needed to perform a designated function with
specified results, such as the gathering of specified data, its processing, and
delivery to users.

System Evaluation Plan (SEP). The SEP documents the integrated test and
evaluation strategy, which the testers and evaluators use throughout the system
acquisition life cycle. The SEP:

       •   addresses system critical operational issues and criteria, critical
           technical parameters, and additional evaluation focus areas;


                                     40
       •   identifies data needs and sources, and the approach to be used to
           evaluate the system;

       •   specifies the analytical plan; and

       •   identifies program constraints.

The SEP details the evaluator’s planned actions for the evaluation of the system
and is prepared and updated by the system evaluator.

System Evaluation Report (SER). The SER documents independent evaluation
findings and recommendations on system operational effectiveness, suitability,
and survivability. The SER addresses and answers the critical operational issues
and additional evaluation focus areas in the SEP. The system evaluator produces
a SER to advise the decision review principals and milestone decision authority
concerning the adequacy of testing, the system’s effectiveness, suitability, and
survivability, as well as recommendations for future test and evaluation and
system improvements. The SER enables the milestone decision authority to make
an informed decision on system production.

System Evaluator. The system evaluator is an Army command or agency that
assesses program effectiveness, suitability, and survivability (or progress towards
achieving these) during each phase in the system’s life cycle. Further, the system
evaluator is responsible for planning, conducting, and reporting the system
evaluation or assessment.

System-of-Systems. System-of-systems, also known as a family-of-systems, is
several independent programs which, when integrated, form a system to meet the
needs of a broad mission area such as missile defense. The performance of the
individual component programs making up the system-of-systems is specified in
the respective program ORDs; the overarching requirements for the
system-of-systems are contained in a CRD.

System Security Authorization Agreement. The system security authorization
agreement is a formal agreement among the designated approving authority, the
certification authority, the information technology system user representative, and
the program manager. The agreement is used throughout the entire DITSCAP to
guide actions, document decisions, specify information technology security
requirements, document certification tailoring and level-of-effort, identify
potential solutions, and maintain operational systems security.

System Security Authorization Agreement Signatories. The system security
authorization agreement signatories include the information technology system
program manager, the designated approving authority, the certification authority,
and the user representative.

Technical Architecture View. A technical architecture view is a minimal set of
rules governing the arrangement, interaction, and interdependence of system parts
or elements, whose purpose is to ensure that a conformant system satisfies a
specified set or requirements.



                                    41
Test and Evaluation Master Plan. The test and evaluation master plan
documents the overall structure and objectives of the test and evaluation program.
It provides a framework within which to generate detailed test and evaluation
plans and it documents schedule and resource implications associated with the
test and evaluation program. The test and evaluation master plan identifies the
necessary developmental test and evaluation, operational test and evaluation, and
live-fire test and evaluation activities. Further, the test and evaluation master plan
relates program schedule, test management strategy and structure, and required
resources to critical operational issues, critical technical parameters, objectives
and thresholds documented in the operational requirements document, evaluation
criteria, and milestone decision points.

Test Integration Working Group. The Test Integration Working Group
facilitates the integration of test requirements through close coordination among
the materiel developer, combat developer, logistician, and developmental and
operational testers to minimize development time and cost and preclude
duplication between developmental and operational testing.

Threshold. Threshold is the minimum acceptable value that, in the user’s
judgment, is necessary to satisfy the need. If threshold values are not achieved,
program performance is seriously degraded, the program may be too costly, or the
program may no longer be timely.

User Representative. The user representative is the liaison for the user or the
user community, particularly during the initial development of a system. The user
representative is the individual or organization that represents the user community
in the specification, acquisition and maintenance of information technology
system. The user representative defines the system mission and functionality and
is responsible for ensuring that the user’s interests are maintained throughout
system development, modification, integration, acquisition, and deployment.

Validation. Validation is an authoritative act or process of supporting or
corroborating whether information technology and NS system interoperability and
supportability requirements are appropriate.

Verification. Verification is the act of establishing whether information
technology and NS system interoperability requirements are accurate, measurable,
supportable, and adequately reflected in a system or family of systems' acquisition
strategy, test and evaluation plan, or in non-materiel or non-traditional acquisition
information technology and NS system interoperability plans.

Vulnerability. Vulnerability is the characteristics of a system that cause it to
suffer a definite loss or reduction of capability to perform its designated mission
as a result of having been subjected to a certain level of effects in a man-made
hostile environment.




                                     42
Appendix C. Global Information Grid
           Global Information Grid. The GIG provides the foundation for network-centric
           warfare, information superiority, decision superiority, and ultimately full
           spectrum dominance as depicted in the figure below.




           Foundation for Achieving Full Spectrum Dominance23

           The concept of the GIG evolved from concerns about the interoperability and
           end-to-end integration of automated information systems. Issues such as
           streamlined management and improved information infrastructure investment also
           contributed to the heightened interest in a GIG. However, the real demand for a
           GIG originates from the requirement for information and decision superiority to
           achieve full spectrum dominance, as expressed in Joint Vision 2020. The ability
           to achieve shared situational awareness and knowledge among all elements of a
           joint force, including allied and coalition partners, is increasingly viewed as a
           cornerstone to transform future warfighting capabilities.

           Network-Centric Warfare. The GIG capstone requirements document states
           that network-centric warfare allows a warfighting force to achieve improved
           information positions in the form of common operational pictures that provide the
           basis for shared situational awareness and knowledge, and a resulting increase in
           combat power.

           Information Superiority. Information superiority is the capability to collect,
           process, and disseminate an uninterrupted flow of information while exploiting or
           denying an adversary’s ability to do the same. Information superiority is
           achieved in a noncombat situation or one in which there are no clearly defined
           adversaries when friendly forces have the information necessary to achieve
           operational objectives. Information superiority provides the joint force with a
           competitive
23
     Figure obtained from the GIG Capstone Requirements Document, August 30, 2001.


                                                   43
advantage only when it is effectively translated into superior knowledge and
decisions. The joint force must be able to take advantage of superior information
converted to superior knowledge to achieve “decision superiority.”

Decision Superiority. Decision superiority is to arrive at better decisions and
implement them faster than an opponent can react, or in a noncombat situation, at
a tempo that allows the force to shape the situation or react to changes and
accomplish its mission. Decision superiority does not automatically result from
information superiority. Organizational and doctrinal adaptation, relevant
training and experience, and the proper command and control mechanisms and
tools are equally necessary.

Full Spectrum Dominance. The transformation of the joint force to reach full
spectrum dominance rests upon information superiority as a key enabler and our
capacity for innovation. The label full spectrum dominance implies that U.S.
Forces are able to conduct prompt, sustained, and synchronized operations with
combinations of forces tailored to specific situations and with access to and
freedom to operate in all domains: space, sea, land, air, and information.
Additionally, given the global nature of our interests and obligations, the United
States must maintain its overseas presence forces and the ability to rapidly project
power worldwide in order to achieve full spectrum dominance.




                                     44
Appendix D. Army Interoperability and
            Information Assurance Survey
            Results
                                                                                    Number of
                                                                                     Program
                                                                                    Managers
         Survey Question                            Survey Answers                  Responded

1. What acquisition category is       a. Acquisition Category I AM or                    0
   your program?                           Acquisition Category I AC                     9
                                      b. Acquisition Category I D or Acquisition        13
                                           Category I                                   14
                                      c. Acquisition Category II                         4
                                      d. Acquisition Category III
                                      e. Other
2. What type of system is your        a. NS system                                      14
   program?                           b. Information technology system (that is          5
                                           not an NS system)                             8
                                      c. Weapon system                                   8
                                      d. Automated information system                    5
                                      e. None of the above
3. What is the last milestone your    a. Pre-acquisition (e.g., science and              1
   program completed?                      technology, concept development,
                                           demonstration)
                                      b. Milestone A (or 0)                              3
                                      c. Milestone B (or II or system                   13
                                           development and demonstration)                4
                                      d. Milestone C (or III or operational             14
                                           system development)
                                      e. Beyond Milestone C (or full-rate                6
                                           production)
                                      f. Other

4. Which joint mission area does      a.   Dominant maneuver                            12
   your program support? Select       b.   Deployment redeployment                       3
   the appropriate answer based on    c.   Precision engagement                          7
   the Chairman of the Joint Chiefs   d.   Strategic deterrence                          0
   of Staff Memorandum                e.   Overseas presence and force projection        7
   (CM-1014-00), “Joint Mission       f.   Special operations                            1
   Areas to Organize the Joint        g.   Joint command and control                    11
   Operational Architectures.”        h.   Information superiority                      14
                                      i.   Focused logistics                             3
                                      j.   Full dimensional protection                   7
                                      k.   Multinational operations/                     4
                                             interagency coordination
                                      l.   Other                                        14




                                            45
                                                                                 Number of
                                                                                  Program
                                                                                 Managers
         Survey Question                            Survey Answers               Responded

5. For information technology or       a. Yes                                        31
   NS systems, the ORD must            b. No                                          8
   include interoperability            c. Unsure                                      2
   requirements, thus requiring an
   interoperability key performance
   parameter. These systems must
   also have related elements of IA.
   In this respect, do you think IA is
   a subcomponent of
   interoperability?

6. Should IA requirements be tested    a. Yes                                        34
   in addition to interoperability     b. No                                          3
   requirements?                       c. Unsure                                      3

7. Has the Joint Staff J-6 certified   a. Yes                                        17
   your program’s ORD for              b. No, the ORD has not been through the        8
   interoperability requirements?           process yet.
                                       c. No, the ORD went through the process        1
                                            but was not certified
                                       d. In process                                  8
                                       e. Unsure                                      7

8. Is your program part of the GIG     a. Yes                                        17
   asset inventory?                    b. No                                         11
                                       c. Unsure                                     12
9. How is your program compatible      a. Uses current defense information           12
   with the GIG? Select all that          switched network services
   apply.                              b. Uses approved allocated frequency          17
                                          plans
                                       c. Uses approved cryptology                   18
                                       d. Meets appropriate standards (e.g.,         29
                                          defense information infrastructure
                                          common operating environment
                                          compliance)
                                       e. None of the above                           3
                                       f. Other                                       5
                                       g. Unsure                                      1




                                            46
                                                                                  Number of
                                                                                   Program
                                                                                  Managers
         Survey Question                             Survey Answers               Responded

10. Which Army oversight               a. Program executive officer/milestone         16
    entity(ies) or command(s)             decision authority
    ensures that your Acquisition      b. Army Deputy Chief of Staff for               7
    Category I AM, I AC, I D, or I C      Programs
    operates with other Defense        c. Assistant Secretary of the Army             10
    agency and Military Department        (Acquisition, Logistics, and
    acquisition programs as               Technology)
    envisioned by the warfighter.      d. Army Test Command                            9
                                       e. TRADOC                                      12
                                       f. Deputy of Information Systems for C4I       10
                                       g. Army Materiel Command                        1
                                       h. Army Intelligence and Security               3
                                          Command
                                       i. Joint Staff J-6                              6
                                       j. U.S. Joint Forces Command (J-6)              3
                                       k. Other                                       23

11. Which Army oversight               a. Program executive officer/milestone         29
    entity(ies) or command(s)             decision authority
    ensures that your Acquisition      b. Army Deputy Chief of Staff for               5
    Category II or below program          Programs
    operates with other Defense        c. Assistant Secretary of the Army             10
    agency and Military Department        (Acquisition, Logistics, and
    acquisition programs as               Technology)
    envisioned by the warfighter.      d. Army Test Command                            3
                                       e. TRADOC                                      11
                                       f. Deputy of Information Systems for C4I       10
                                       g. Army Materiel Command                        6
                                       h. Army Intelligence and Security               1
                                          Command                                      1
                                       i. Other                                        8

12. Of the following documentation     a.   ORD                                       31
    normally provided to the           b.   CRD                                        8
    milestone decision authority at    c.   C4I support plan                          21
    Milestone B, which documents       d.   TEMP                                      24
    fully describe interoperability    e.   Developmental test results                12
    requirements and strategies?       f.   Operational test results                  11
    Select all that apply.             g.   SEP                                       11
                                       h.   Event design plan                          9
                                       i.   Operational architecture view             18
                                       j.   Systems architecture view                 16
                                       k.   Technical architecture view               15
                                       l.   Security plans                            13
                                       m.   Other                                      9
                                       n.   None                                       2




                                             47
                                                                           Number of
                                                                            Program
                                                                           Managers
         Survey Question                            Survey Answers         Responded

13. Of the following documentation    a.   ORD                                 32
    normally provided to the          b.   CRD                                  8
    milestone decision authority at   c.   C4I support plan                    23
    Milestone C, which documents      d.   TEMP                                29
    fully describe interoperability   e.   Developmental test results          20
    requirements and strategies?      f.   Operational test results            23
    Select all that apply.            g.   SEP                                 18
                                      h.   Event design plan                    9
                                      i.   Operational architecture view       16
                                      j.   Systems architecture view           16
                                      k.   Technical architecture view         17
                                      l.   Security plans                      13
                                      m.   Other                                6
                                      n.   None                                 0

14. Of the following documentation    a.   ORD                                 19
    normally provided to the          b.   CRD                                  4
    milestone decision authority at   c.   C4I support plan                    15
    Milestone B, which documents      d.   TEMP                                13
    fully describe IA requirements    e.   SSAA                                20
    and strategies? Select all that   f.   Developmental test results           5
    apply.                            g.   Operational test results             7
                                      h.   SEP                                  7
                                      i.   Event design plan                    3
                                      j.   Operational architecture view        8
                                      k.   Systems architecture view            6
                                      l.   Technical architecture view          6
                                      m.   Security plans                      11
                                      n.   Other                                7
                                      o.   None                                 2

15. Of the following documentation    a.   ORD                                 22
    normally provided to the          b.   CRD                                  5
    milestone decision authority at   c.   C4I support plan                    18
    Milestone C, which documents      d.   TEMP                                19
    fully describe IA requirements    e.   SSAA                                29
    and strategies? Select all that   f.   Developmental test results          12
    apply.                            g.   Operational test results            13
                                      h.   System evaluation plan              12
                                      i.   Event design plan                    5
                                      j.   Operational architecture view       10
                                      k.   Systems architecture view           10
                                      l.   Technical architecture view          8
                                      m.   Security plans                      16
                                      n.   Other                                7
                                      o.   None                                 1




                                            48
                                                                                        Number of
                                                                                         Program
                                                                                        Managers
         Survey Question                                Survey Answers                  Responded

16. The inclusion of IA requirements     a. I agree                                         31
    in an ORD would benefit from         b. I disagree                                       6
    the addition of high-level           c. I am unsure                                      2
    information exchange
    requirements. (See Chairman of
    the Joint Chiefs of Staff
    Instruction 3170.01B,
    “Requirements Generation
    System.”)
17. The ORD must define                  a. I agree                                         33
    information exchange                 b. I disagree                                       5
    requirements for information         c. I am unsure                                      1
    technology and NS system
    acquisition programs.
18. IA should be a key performance       a. I agree                                         22
    parameter in my acquisition          b. I disagree                                      12
    program that must exchange data      c. I am unsure                                      2
    external to the information
    technology and NS system, or
    weapon system’s host platform.

19. My acquisition program will          a.   Public key infrastructure                      7
    include the following IA security    b.   Firewalls                                     17
    techniques or technologies           c.   Smart cards                                    3
    before production. Select all that   d.   Passwords                                     34
    apply.                               e.   Encryption/decryption                         27
                                         f.   Physical security                             31
                                         g.   Frequency hopping                             16
                                         h.   Restoration of capability                     20
                                         i.   None of the above                              0
                                         j.   Other ____                                     8
20. My acquisition program will          a.   Public key infrastructure                      9
    include the following IA security    b.   Firewalls                                     16
    techniques or technologies after     c.   Smart cards                                    6
    production. Select all that apply.   d.   Passwords                                     31
                                         e.   Encryption/decryption                         27
                                         f.   Physical security                             30
                                         g.   Frequency hopping                             17
                                         h.   None of the above                              2
                                         i.   Other                                         10

21. List all IA products that are        The program offices identified different           32
    commercial off-the-shelf             commercial off-the-shelf products. A list of
    products related and/or              the products identified is available upon
    integrated into your acquisition     request.
    program.



                                               49
                                                                                Number of
                                                                                 Program
                                                                                Managers
         Survey Question                               Survey Answers           Responded

22. Are all the products listed in        a. Yes                                    10
    question 21 certified for IA by       b. No                                     14
    the National Security Agency?         c. Unsure                                  5

23. Do you plan to have all products      a. Yes                                     6
    listed in question 21 certified for   b. No                                     12
    IA by the National Security           c. If no, why not?                        11
    Agency? Answer if question 22
    was No.


24. Do fluctuations in funding and        a. Yes                                    24
    prioritization affect system          b. No                                     12
    development as it relates to          c. If so, how?                            12
    interoperability requirements?

25. Is your program in compliance         a. Yes                                    34
    with the Clinger-Cohen Act?           b. No                                      2
                                          c. If no, why not?                         5
26. Do you believe the GIG                a. Yes                                    22
    currently addresses all IA            b. No                                     11
    requirements?                         c. If no, what does it not address?       11




                                               50
Appendix E. Army Programs Surveyed
1.    Army Airborne Command and Control             22. Joint Surveillance Target Attack
        System                                            Radar System-Common Ground
                                                          Sensor
2.    Advanced Field Artillery Tactical Data
        System Control System                       23. Joint Tactical Ground Station
3.    Army Key Management System                    24. Joint Tactical Radio System
4.    Air and Missile Defense Planning              25. Land Warrior Integrated Soldier
        Control Systems                                   Fighting System
5.    All Source Analysis System                    26. Medical Communications for Combat
                                                          Casualty Care
6.    Aviation Combined Arms Tactical
        Trainer                                     27. Maneuver Control System
7.    Close Combat Tactical Trainer                 28. Medium Extended Air Defense
                                                          System
8.    Combat Service Support Control
        System                                      29. Mobile Tower System
9.    Defense Message System-Army                   30. Movement Tracking System
10.   Enhanced Position Location Reporting          31. Mounted Warrior Soldier System
        System                                            Cordless Communications
11.   Forward Area Air Defense Command,             32. Phased Array Tracking to Intercept of
        Control and Intelligence                          Target (PATRIOT) Advanced
                                                          Capability-3
12.   Force XXI Battle Command Brigade-
        and-Below                                   33. Profiler
13.   Firefinder AN/TPQ-47                          34. Prophet
14.   Global Combat Support System-Army             35. Sentinel
15.   Global Positioning System Tactical            36. Single Channel Ground and Airborne
        Receivers                                         Radio System
16.   Guardrail/Common Sensor                       37. Spitfire
17.   Integrated Meteorological System              38. Transformation Coordinators’-
                                                          Automated Information for
18.   Integrated System Control                           Movements System II
19.   Joint Land Attack Cruise Missile              39. Tactical Exploitation System
        Defense Elevated Netted Sensor
        System                                      40. Tactical Unmanned Aerial Vehicle
20.   Joint Network Management System               41. Warfighter Simulation System
21.   Joint Service Lightweight Stand-off
        Chemical Agent Detector




                                               51
Appendix F. Information Assurance
            Requirements Policy
        DoD Directive 4630.5; DoD Directive 5000.1; DoD Directive 8500.1; DoD
        Instruction 5000.2; DoD Guidebook, “Interim Defense Acquisition Guidebook;”24
        Chairman of the Joint Chiefs of Staff Instruction 3170.01B; Army
        Regulation 70-1; and Army Regulation 73-1 discuss information assurance (IA)
        requirements generation and testing.

        DoD Directive 4630.5. DoD Directive 4630.5 requires interoperability and
        supportability requirements to be balanced with the need for IA. Further,
        the Directive requires the DoD Components to ensure that program managers
        and testers prepare test and evaluation plans for all information technology and
        NS systems.

        DoD Directive 5000.1. DoD Directive 5000.1 requires acquisition managers to
        address IA for all weapon, C4I surveillance and reconnaissance, and information
        technology programs that depend on external information sources or that provide
        information to other DoD systems.

        DoD Directive 8500.1. DoD Directive 8500.1 requires the DoD Components to
        identify and include IA requirements in the design, acquisition, installation,
        operation, upgrade, or replacement of all DoD information systems for which they
        have responsibility.

        DoD Instruction 5000.2. DoD Instruction 5000.2 requires operational testers
        and evaluators to assess IA for all weapon, C4I surveillance and reconnaissance,
        and information programs that depend on external information sources or that
        provide information to other DoD systems.

        DoD Instruction 8500.2. DoD Instruction 8500.2 requires the heads of DoD
        components to ensure that IA awareness, training, education, and
        professionalization are provided to all military and civilian personnel, including
        contractors, commensurate with their respective responsibilities for developing,
        using, operating, administering, maintaining, and retiring DoD information
        systems in accordance with Deputy Secretary of Defense guidance. The
        Instruction also states that the heads of DoD components to provide for an IA
        monitoring and testing capability according to DoD Directive 4640.6. Further,
        the Instruction states that the IA Manager shall ensure that IA inspections, tests,
        and reviews are coordinated. In addition, the Instruction states that the ability to
        test and verify is an essential competency of the DoD IA program. Finally, the

24
 Formerly, DoD Regulation 5000.2-R, “Mandatory Procedures for Major Defense Acquisition Programs
 (MDAPs) and Major Automated Information System (MAIS) Acquisition Programs,” April 5, 2002. The
 Deputy Secretary’s memorandum, “Defense Acquisition,” October 30, 2002, and Attachment 2 to that
 memorandum reference a guidebook to accompany the interim guidance. The former DoD
 Regulation 5000.2-R will serve as the guidebook while the Defense Acquisition Policy Working Group
 creates a streamlined guidebook. The guidebook is not mandatory, but should be used for best practices,
 lessons learned, and expectations until replaced.


                                                  52
Instruction states that the IA objective condition is testable, IA compliance is
measurable, and the activities required to achieve the IA Control are assignable
and accountable.

DoD Guidebook. The Guidebook states that operational test and evaluation
should determine:

       •   the operational effectiveness and suitability of a system under realistic
           operational conditions, including combat; and

       •   whether the system has satisfied thresholds and objectives in the
           approved ORD and the associated critical operational issues.

Joint Staff. Chairman of the Joint Chiefs of Staff Instruction 3170.01B requires
all DoD systems that are used to enter, process, store, display, or transmit DoD
information regardless of classification or sensitivity to address IA. Further, the
Instruction requires the initial ORD to establish requirements describing the
capabilities and characteristics of the proposed system. The Instruction also
requires the requirements to be written in output-oriented and measurable terms in
threshold and objective format with criteria and rationale for each.

Army Regulation 70-1. Army Regulation 70-1 requires the Army Training and
Doctrine Command to develop and update ORDs.

Army Regulation 73-1. Army Regulation 73-1 states that a system’s TEMP
provides a map for integrated simulation, test and evaluation plans, schedules, and
resource requirements necessary to accomplish the test and evaluation program.
Further, the Regulation states that appropriate developmental testing assesses the
achievement of critical technical parameters, identifies technological and design
risks, determines readiness to proceed to the initial operational test, and provides
data for system evaluations. In addition, the Regulation states that the initial
operational test determines operational effectiveness, suitability, and the
survivability of the system under realistic conditions.




                                    53
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director for Acquisition Initiatives
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Networks and Information Integration)
Director, Operational Test and Evaluation

Joint Staff
Director, Joint Staff
   Director for Command, Control, Communications, and Computers Systems (J-6)
   Director for Force Structure, Resources, and Assessment (J-8)

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Commander, Army Training and Doctrine Command
Commander, Army Test and Evaluation Command
Chief Information Officer, Department of the Army
Deputy Chief of Staff for Operations and Plans
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Unified Command
Commander, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Information Systems Agency
   Commander, Joint Interoperability Test Command

                                          54
Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        55
___________________________________________________________________



Director, Operational Test and Evaluation
Comments




                             57
___________________________________________________________________



Secretary of the Army and Army Chief
Information Officer Comments




                             58
___________________________________________________________________




                             59
___________________________________________________________________




                             60
___________________________________________________________________




                             61
___________________________________________________________________




                             62
___________________________________________________________________




                             63
___________________________________________________________________




                             64
___________________________________________________________________



Assistant Secretary of the Army (Acquisition,
Logistics, and Technology) Comments




                             65
Team Members
The Acquisition Management Directorate, Office of the Deputy Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

John E. Meling
Jack D. Snider
Suellen R. Brittingham
Mark E. Stephens
Kevin W. Klein
Kelly R. McMaster
Jessica M. Ullrey
Jacqueline N. Pugh
